Semiannual Report to the Congress
               March 2002




       National Science Foundation
        Office of Inspector General
                                   From the Inspector General

     O
                n behalf of the Office of Inspector General of the National Science Foundation, I am
                 pleased to present this summary of our accomplishments for the six-month reporting period
                 ending in March 31, 2002. The audits, investigations, reviews and other activities described
in this report reflect our strong commitment to helping NSF maintain and improve the integrity and
efficiency of its programs and operations.

     The past six months have been extremely productive. Our office issued 19 audit reports that identified
$1.4 million in promised cost sharing that is at-risk of not being contributed, and an additional $447,573
in questioned costs. NSF disallowed $940,564 in this period, mostly from audits conducted prior to last
October. We closed 101 investigative cases, including 16 civil/criminal cases, and made $229,828 in
recoveries. We also referred 6 cases to the Department of Justice, and assisted the agency in making two
findings of misconduct in science that were based on OIG reports.

     In January we issued our annual list of the most important management and performance challenges
facing the NSF. In developing this list, we employ our best effort to identify the most vulnerable operational
and programmatic areas of the agency. These challenges are those requiring significant management
                                            attention and resources to either resolve current issues or prevent
                                            future ones from arising. During this period, we also contracted
                                            with an independent public accounting firm to conduct an audit
                                            of the agency’s financial statements. For the fourth consecutive
                                            year, NSF received an unqualified opinion for the financial
                                            statements.

                                                 Within the Inspectors General community, I chair a
                                           workgroup on misconduct in research charged with assisting
                                           agencies and Offices of Inspector General (OIGs) to achieve
                                           consistency in handling research misconduct issues. Toward that
                                           goal, our group has developed standards for administering
                                           inquiries and investigations, and are currently testing their
                                           effectiveness. Another goal of the workgroup is to develop tools
                                           that will facilitate fair, timely, and high quality resolution of
Dr. Stanley Jaskolski, Chair, Audit and    misconduct in research allegations. For example, best practices
Oversight Committee, and Dr. Boesz, at     for coordinating investigations by OIGs and agencies are being
a recent Committee meeting.
                                           documented and will be made available for training staff.

                                              Finally, as I write this, the terms of several members of the
National Science Board are about to expire, including the Chairman, Dr. Eamon Kelly, and the Chair of
the Audit and Oversight Committee, Dr. Stanley Jaskolski. We greatly appreciate the leadership and
support they’ve provided our office, and I personally want to thank them for their vital role in making
NSF one of the most respected and effective government agencies. The OIG staff looks forward to
working with the Board’s new leadership.



                                                                                 Christine C. Boesz, Dr.P.H.
                                                                                           Inspector General
                                                                                                May 6, 2002
                                                                                            Table of Contents


Highlights .......................................................................................... 5

OIG Management Activities ............................................................... 7
         Management Challenges ......................................................................................... 7
         Legislative Review .................................................................................................. 10
         Outreach/Prevention ............................................................................................ 12

Audits & Reviews ............................................................................ 19
         Significant Reports ................................................................................................. 19
         Other Reports ......................................................................................................... 30
         Corrective Action Prompted by Previous Audits ............................................. 32
         Work in Progress .................................................................................................... 35

Investigations ................................................................................. 39
         Summary of Case Activity .................................................................................... 39
         Civil and Criminal Investigations ......................................................................... 40
         Administrative Investigations ............................................................................... 46
         Other Investigative Activites ................................................................................ 50

Statistical Data ................................................................................ 53

Appendices
         Reporting Requirements ....................................................................................... 65
         Acronyms ................................................................................................................ 67
                                                                             Highlights

     The following is a summary of some of the more significant issues
described in this Semiannual Report:

• The Inspector General’s list of the most serious management and
  performance challenges facing the National Science Foundation
  (NSF) is summarized on page 7.

• OIG issued the Fiscal Year 2001 Independent Auditor’s Report in
  which NSF received its fourth consecutive unqualified opinion
  on the financial statements. However, the auditors identified
  two reportable conditions relating to (1) post-award grant and
  asset management, and (2) electronic data information systems.
  Although NSF has an adequate system of award management
  over its pre-award and award phases, it does not have a compre-
  hensive risk-based internal grants management program to
  monitor its post-award phase. The audit also revealed vulner-
  abilities in NSF’s electronic data information systems that in-
  crease the risk of loss, misuse, and unauthorized modification of
  information or disruption of essential services. (See page 19)

• Providing effective management and oversight of large infrastruc-
  ture projects remains an important management challenge, as
  NSF has spent over $600 million for major research equipment
  and facilities projects in FY 2001 alone. We have continued our
  audit work in this area during the current reporting period,
  issuing one audit report and nearing completion of another. We
  are also tracking corrective actions taken by the agency to address
  this issue. (See page 22)

• Issues related to cost sharing commitments comprise another of
  the top ten management challenges facing NSF. Recently we
  undertook two audit initiatives to gauge the extent of the prob-
  lem. The first initiative focused on five different campuses of the
  same university system. The second cost-sharing audit initiative
  focused on eight geographically dispersed educational institutions
  that had promised $500,000 or more of cost sharing. The results
  thus far indicate that of $16.5 million of cost sharing promised
  by five educational institutions, $1.5 million of claimed cost
  sharing was not supported in accordance with Federal cost


                                                                         5
Highlights




                principles. The audits also indicate that in general, awardees are not account-
                ing for cost sharing adequately. (See page 23)

             • In two recent cases, courts firmly enforced the terms and conditions of NSF’s
               awards. Grantees that sued NSF to avoid reimbursing the government for
               costs improperly claimed were ordered to repay the disputed amounts. In
               one case, the court ordered a University Foundation to repay $139,152 in
               promised cost sharing and stated “NSF was well within its contractual rights
               to seek relief when the award letter unequivocally stated that as a condition
               of receiving the grant, the Foundation had to ‘agree to share in the costs of
               the project.’” (See page 32)

             • Shortly after participating in an NSF awards conference, attendees became
               the victims of identity theft. The investigation concluded that the victims’
               social security numbers (SSNs) were stolen through information they had
               provided to NSF as part of the registration process. Subsequently, the NSF
               funding program has modified its procedures to ensure that in the future, the
               SSNs of all conference participants will be expunged from the event database.
               In addition, the program issued an advisory and apology to the conference
               attendees. (See page 40)

             • On February 25, 2002, a bioengineering professor from a South Carolina
               university pled guilty in U.S. District Court to one count of submission of
               false information to the Federal government. In our September 2001 Semi-
               annual Report, we reported that the professor submitted a fraudulent final
               report for an NSF Small Business Innovation Research (SBIR) Phase I grant,
               that was essentially copied verbatim from a thesis written by one of his
               students. In addition, a company accused of submitting duplicate SBIR
               proposals to NASA and NSF and obtaining funding from each agency to
               conduct the same research, agreed to a settlement in which it repaid $25,000
               to the government. (See page 43)

             • Following OIG’s recommendations, the Deputy Director issued a finding of
               misconduct in science in two separate cases: the first involving a biologist at a
               Washington institution who plagiarized material from another scientist’s
               proposal and; a doctoral candidate in chemistry who falsified data contained
               in research supported by NSF. Other penalties were assessed in each case.
               (See page 47)




     6
                                     OIG Management Activities

Management Challenges


     A
               s required by law, the OIG submitted its annual statement
               summarizing what the office considers to be the most
               serious management and performance challenges facing
NSF. To be considered for the challenges list, an activity must fall under
at least two of the following criteria established by our office: 1) inherent
risk (i.e., high potential for fraud, waste, or abuse); 2) activity critical to
NSF’s mission; 3) presence of known problems; 4) potential obstacle to
achieving the President’s Management Agenda. The most serious NSF
management challenges identified by the OIG include:

      Workforce Planning and Training. The strategic management of
human capital is recognized as an important priority throughout
government and is an important element of the President’s Management
Agenda. NSF is vulnerable to a wave of retirements in key areas as 63
percent of the agency’s executive workforce, as well as a large percentage
of the science and engineering staff, are eligible to retire within five
years. Meanwhile NSF’s budget for salaries and expenses continues to
lag behind the growth of the agency’s overall program budget. NSF’s
Management Controls Committee evaluated this issue as a medium
risk that could worsen in the not-too-distant future. As part of the OIG’s
FY 2002 appropriations bill, Congress requested that our office analyze
the adequacy of the agency’s staffing and management plan. An interim
analysis will be submitted early in April, and our final report is due in
the summer of 2002.
                                                                                         HIGHLIGHTS
     Management of Large Infrastructure Projects. In response to an
OIG audit report, as well as concerns expressed by Congress and OMB,
NSF began updating its policies and procedures during 2001 to                     Management
strengthen the management and oversight of large facility projects. As            Challenges              7
part of this process, NSF developed a Large Facility Projects Management
and Oversight Plan. While we believe the plan is an important first step          Legislative Review      10
in ensuring that NSF’s large facility projects provide appropriate
stewardship over public funds, it constitutes only a broad outline of
NSF’s intentions. More-detailed guidelines are required in order for
                                                                                  Outreach/
corrective action to be effective.                                                Prevention Activities   12




                                                                                  7
OIG Management Activities




                                  Award Administration. While NSF has demonstrated its efficiency in making
                            awards, we believe that the agency should improve post-award monitoring by
                            establishing written policies and procedures to ensure financial and administrative
                            compliance. In the course of performing financial and compliance audits on a variety
                            of awardees, we have found that some are at greater risk for compliance problems
                            than others. Since NSF staff resources are limited, factors such as award size, type of
                            entity, and amount of experience with Federal grants should be considered when
                            determining which awardees should be accorded greater oversight. NSF’s Division
                            of Grants and Agreements (DGA) is developing a risk-management approach to
                            post-award monitoring activities.

                                 Cost Sharing. Cost sharing leverages the government’s investment in basic
                            research by obtaining contributions from grantees and others. In FY 2000 NSF
                            made 3,111 awards that required cost sharing amounting to $508,516,513. Our
                            audits of awardees continue to reveal problems with cost sharing that include shortfalls
                            in contributions, instances of missing or insufficient documentation, and systems
                            that are inadequate to ensure their proper accounting.

                                  Given the large amount of these commitments, the failure to honor cost sharing
                            obligations or to keep proper accounts can have serious consequences for NSF’s awards.
                            If promised cost sharing is not realized, either the programmatic objectives are not
                            met or the project is not funded as originally projected. In either case, NSF has paid
                            a larger share than what was agreed to and opportunities for the agency to fund other
                            awards are curtailed. We believe that NSF should re-examine its policies on the
                            reporting of cost sharing and resolving of any questioned amounts to better ensure
                            compliance with Federal guidelines.

                                 Data Security. NSF faces the challenging task of facilitating an open research
                            culture while protecting its critical information assets against unauthorized intrusion.
                            Our review of NSF’s information security program indicates that there may be
                            weaknesses that increase security risks. NSF has concurred with our recommendations
                            and has initiated corrective action.

                                  GPRA Data Quality. The President’s Management Agenda outlines plans to
                            formally link performance review with budget decisions beginning in FY 2003,
                            complementing the objectives of the Government Performance and Results Act
                            (GPRA). While NSF is making steady progress in complying with GPRA, the agency
                            needs to evaluate and improve both its formulation of GPRA measures and its
                            verification of data in order to facilitate the integration of budget and performance
                            information. In a report issued in June 2001, GAO found that some strategies were
                            vague and failed to identify specific steps for achieving their goal.

                                In addition, we believe that the validity of NSF’s GPRA data and outcome
                            measures has not been firmly established. In order to address these concerns, which


                    8
                                                                  OIG Semiannual Report March 2002




were raised by GAO in a report on NSF’s FY1999 Performance Report, the agency
retained a contractor to verify and validate selected GPRA performance data, including
outcome measures. These measures are based on the reports of various external expert
panels including the Committees of Visitors (COVs) and Advisory Committees (ACs),
which conduct evaluations of program activities. Although the contractor concluded
that NSF’s processes were adequate, we found that the contractor did not assess the
process used by the committees to make their determinations, nor did it evaluate the
underlying data used by the committees in making their judgments. Our office is
planning to conduct a review of the COV process during the current fiscal year.

      Cost Accounting Systems. At present, NSF’s information systems do not readily
provide the basic cost accounting information needed to effectively manage and report
on agency operations, such as the cost of NSF’s various grantmaking activities (e.g.,
proposal processing, peer review, post-award administration) or large infrastructure
projects. NSF’s ability to measure agency performance, link its costs to its results,
and fully implement GPRA, is dependent on an effective financial and cost accounting
system. Therefore, NSF should modify its accounting systems so they can capture
total costs and readily supply total cost information useful to NSF management, the
National Science Board, and Congress.

       Management of U.S. Antarctic Program. The successful operation of the USAP
requires unique management and administrative skills that are responsive to the special
needs of Antarctic scientific research. Staff must not only know the science, but must
also manage contractors engaged in delivering a broad range of services to the American
scientific community located in a difficult and dangerous environment. Our audit
work has focused on reviewing these support activities because of their many inherent
risks. For example, we are currently reviewing USAP’s safety and health program,
regarded as a high-risk activity because of the difficulties of delivering medical services
in such a remote location. Another challenge for the program is the tracking and
accounting for items associated with the USAP’s large and distant infrastructure,
which includes equipment, planes, ships and buildings. Capturing the correct
information requires close coordination among OPP, its contractors, and NSF financial
staff.

      Merit Review and its Role in Fostering Diversity. The effectiveness and integrity
of the merit review system may be NSF’s most valuable asset. During the past year
the National Academy of Public Administration released a report on the agency’s
criteria for project selection, focusing in particular on the impact of Criterion 2,
which is aimed at evaluating “broader impacts” of proposed projects, including
potential societal effects. NAPA stated that NSF needed to develop clearer objectives
for the new criterion, adopt quantitative measures and performance indicators to
track those objectives, and conduct broader-based panel reviews with participants
drawn from a wider range of institutions, disciplines, and underrepresented minorities.
NSF has initiated several changes to the merit review process in the past year to


                                                                                              9
OIG Management Activities




                            ensure that more attention is paid to Criterion 2, and we understand that further
                            changes are being considered. NSF also states that it is adding new GPRA measures
                            to track progress in encouraging participation in the merit review process by a broader
                            range of institutions and underrepresented researchers.

                                  The Math and Science Partnership Program. NSF has been designated the
                            lead agency on a key element of the President’s initiative, No Child Left Behind,
                            aimed at strengthening and reforming K-12 education. The partnerships will provide
                            $160 million this year for state and local school districts to join with colleges and
                            universities to improve math and science education at the pre K-12 level.
                            Implementation of the program will pose several challenges to NSF. On a practical
                            level, it requires NSF to articulate expectations clearly at the outset and make many
                            awards within a short time frame; provide extensive coaching of projects in their
                            formative stage to ensure that awardees do effective project planning; and assist project
                            partners in building a shared sense of purpose and coordinating efforts. Therefore,
                            the involvement of NSF on a continuing basis is essential.



                            Legislative Review
                                  The Inspector General Act of 1978, as amended, mandates that our office
                            monitor and review legislative and regulatory proposals for their impact on OIG and
                            NSF programs and operations. We perform these tasks for the purpose of providing
                            leadership in activities that are designed to promote economy, effectiveness, efficiency,
                            and the prevention of fraud, waste, abuse and mismanagement. We also keep Congress,
                            the National Science Board and NSF management informed of problems and monitor
                            legal issues that have a broad effect on the Inspector General community.

                                  During this reporting period we paid particular attention to items that we believe
                            may affect NSF’s ability to meet the President’s Management Agenda and the agency’s
                            management challenges identified by the OIG. We also focused on items that we
                            believe have an impact on the IG community’s efforts to assist agencies in meeting
                            their management goals. Of the 16 bills, 1 Regulation, and 2 court cases we reviewed,
                            the following items merit discussion in this section:

                            H.R. 3338 – Homestake Mine Conveyance Act of 2001

                                 This legislation was enacted as law on January 10, 2002. The Homestake Mine
                            was selected by the National Underground Science Laboratory Committee, an
                            independent panel of distinguished scientists, as the preferred site for the construction
                            of the National Underground Science laboratory. The laboratory would be used to
                            conduct important scientific research.



                   10
                                                                  OIG Semiannual Report March 2002




      The Mine’s owner was unwilling to donate, and the State of South Dakota was
unwilling to accept, the property at the Mine for the laboratory if the owners and the
State of South Dakota would continue to have potential liability with respect to the
transferred property. This legislation, which is contingent on the approval by the
National Science Board and the making of an award by NSF for the establishment of
the laboratory at the Mine, provides that the Federal government will assume a portion
of any potential future liability.

      H.R. 3338 and the NSF management challenge cited above as “Management of
Large Infrastructure Projects” are related. The management challenge concerns the
liability exposure associated with the Homestake Mine and whether NSF would be
provided the necessary resources to properly manage this large project, assuming an
award is ultimately made.

H.R. 3844 – Federal Information Security Management Act of 2002

     H.R. 3844 was designed to strengthen Federal Government information security,
including establishing the requirement for the development of mandatory information
security risk management standards. The bill, if enacted, will require each Federal
agency to develop, document, and implement a agency-wide information security
program that supports the operations and assets of the agency. This includes procedures
for detecting, reporting, and responding to security incidents, and notifying and
consulting with appropriate law enforcement agencies and Offices of Inspectors
General.

      The Act also requires that each Inspector General appointed under the Inspector
General Act of 1978 perform an annual IT security evaluation or arrange for an
independent external auditor to perform it. The Act provides that in those agencies
that do not have an Inspector General appointed under the 1978 Act, the head of the
agency shall engage an independent external auditor to perform the evaluation. The
legislation requires that the results of this evaluation be submitted to the agency head
no later than March 1, each year, starting in 2003.

      In light of the fact that H.R. 3844 specifically states that the evaluation provision
applies to Inspectors General appointed under the Inspector General Act of 1978,
this provision, in its current form, appears not to apply to “Designated Federal Entity”
(DFE) Inspectors General offices. By omitting the phrase “as amended,” this legislation
appears to exclude the 28 DFE agencies, including NSF, added to the Inspector General
Act in 1988. In these cases, the head of each agency may be responsible for engaging
an independent auditor to perform the evaluation described above, rather than the
OIG.

    Recently, our office raised the above issue with the Congressional sponsor of
H.R. 3844’s legislative staff. We were informed that the intent of Congress is to


                                                                                              11
OIG Management Activities




                            include both “establishment” and “DFE” agencies under the agency evaluation
                            provision contained in H.R. 3844. The legislative staff agreed with our office that
                            the bill, as presently constructed, appears ambiguous. We were advised that to
                            eliminate any potential ambiguity, the legislation will be amended to incorporate the
                            words “as amended”, in accordance with our recommendation.

                            Program Fraud Civil Remedies
                            Act of 1986 (PFCRA) (31 U.S.C. 3801-3812)

                                 A legislative priority that we support is amending PFCRA under the Act’s
                            enforcement provisions. We have raised this issue in several prior semiannual reports.

                                 PFCRA sets forth administrative procedures that address allegations of program
                            fraud when the claims are less than $150,000. Currently, the executive departments,
                            military departments, and “establishments” as defined under the Inspector General
                            Act of 1978, are the only agencies permitted to proceed under PFCRA. NSF and
                            other DFE agencies with Inspectors General appointed by agency heads are not
                            included.

                                 We believe that the enforcement provisions of PFCRA would increase NSF and
                            other DFE agency recoveries in instances of fraud that fall below PFCRA’s jurisdictional
                            threshold of $150,000. For example, if the Department of Justice declines to prosecute
                            these cases under the False Claims Act, NSF would be able to use PFCRA’s
                            administrative procedures to recover double damages and monetary penalties, when
                            applicable, as an alternative. In short, including NSF and other DFE agencies under
                            PFCRA will support the OIG community’s statutory mission to deter fraud, waste
                            and abuse.

                                 We ask that Congress consider amending PFCRA to allow agencies with
                            Inspectors General appointed under the Inspector General Act of 1978, as amended,
                            to use PFCRA’s administrative procedures to recover double damages and monetary
                            penalties provided for under the Act.



                            Outreach / Prevention Activities
                                 We began this period with an office-wide retreat to discuss strategies for meeting
                            the goals identified in our Outreach plan (September 2001 Semiannual Report,
                            p. 49):

                                 1. Ensure the integrity of financial, administrative, and research systems;
                                 2. Detect fraud, waste, abuse, and research misconduct;



                   12
                                                                 OIG Semiannual Report March 2002




     3. Obtain and maintain current knowledge about the communities we serve
        so as to focus on matters of substantive concern;
     4. Make it easy for the communities we serve to contact and interact with us.

     At the retreat, we agreed to combine our efforts more with those of NSF, and to
focus on activities that reach a broader audience than just a single university. We
determined that our primary audiences should be NSF program officers, other NSF
employees, awardee sponsored research offices, and professional societies. We also
identified a need for internal activities designed to improve our knowledge of NSF
programs and operations.

Opening Our Doors to NSF

     OIG Open House. Our second annual OIG Open House, held in February,
was an opportunity to talk with NSF employees in an informal and congenial
atmosphere. The home-cooked food vanished rapidly as we were joined by a large
number of NSF program officers, staff, and senior managers. We provided attendees
with copies of new outreach materials and brochures and sought their advice on a
conflict of interest poster we developed to facilitate our outreach efforts.

      The Open House also helped to revitalize our liaison program, in which OIG
staff are assigned to serve as liaisons to NSF directorates. These activities facilitate
open and frequent communication between the OIG and agency units and increase
our understanding of agency programs and operations. Our liaisons serve as points
of contact for NSF staff to discuss allegations or concerns and to seek feedback on
OIG semi-annual reports and the audit plan.




                  Gloria vanKan (right) meets and greets NSF colleagues.




                                                                                           13
OIG Management Activities




                                  Educational Materials. We continue to develop and improve the handout
                            materials we provide about our office and its activities. In this period, we developed
                            two new brochures. The first informs NSF staff of the requirement to bring to our
                            attention any evidence or allegations of misconduct, research misconduct, accounting
                            irregularities, fraud, waste, abuse or corruption involving NSF staff, programs or
                            operations. The brochure explains the requirement that NSF awardees report
                            substantial management problems and describes our methods for handling allegations
                            and ensuring confidentiality. The second brochure alerts NSF employees, awardee
                            institutions and PIs to the seriousness of conflict of interest allegations, how they
                            should be handled, and the consequences of failing to resolve such situations in a
                            timely manner.

                            Conflict of Interest Issues

                                  The increasing awareness within the bio-medical community of conflict of
                            interest issues prompted us to review past conflict of interest cases for significant
                            trends. Our analysis of the cases investigated from 1998-2001 showed that
                            approximately 7 percent of all closed cases relate to COI and contain either allegations
                            of financial COI, violations of employee restrictions, undeclared reviewer conflicts,
                            or failures in institution policies. In resolving these cases, we found that 28 percent
                            required corrective actions, 8 percent produced some form of restitution, and 3 percent
                            resulted in criminal prosecutions. 54 percent ended in no action by our office because
                            the allegation was found to be groundless, or a disclosure was made that resolved the
                            issue. The following charts display the results of our review:




                   14
                                                              OIG Semiannual Report March 2002




      We believe that conflict of interest is an area in which increased outreach and
education can help prevent future improprieties from occurring. Toward that goal,
OIG and the Office of General Counsel prepared a conflict-of-interest poster that we
plan to use in outreach presentations to enhance our educational efforts about
institutional and personal conflict of interest.

Presentations at Conferences

     During this period, we participated in several professional society meetings and
other types of outreach activities. Many were conducted jointly with NSF staff.
Among these activities were meetings at Small Business Innovation Research (SBIR)
conferences, the Society of Ethics across the Curriculum, the conference of Southern
Graduate Schools, Association of Medical and Graduate Departments of Biochemistry,
and the American Association for the Advancement of Science. Through these
meetings we were able to:

•   learn about the latest trends in science.
•   educate attendees about the function of an IG’s office.
•   describe the investigative process, present statistics on case resolution, and
    discuss compliance issues and techniques through our participation on panels
    and workshops.
•   inform the community about assessing “intent” in research misconduct cases
•   communicate the status of the OSTP Research Misconduct policy and specific
    agency implementation plans.
•   facilitate contacts between agency and OIG staff and attendees.

     We continue to respond to invitations from individual colleges and universities,
but encourage the inclusion of other institutions. Our presentation at Georgia Tech
included attendees from Emory and several local Historically Black Colleges. At the


                                                                                        15
OIG Management Activities




                            University of Colorado, where we presented on research misconduct and compliance
                            issues, our session was teleconferenced to Colorado State University. We also gave
                            presentations to students and/or faculty at the University of Delaware, the University
                            of Maryland, and Georgetown University.

                                  In our capacity as a leader on the subject of research misconduct (see p. 35), we
                            also participated in panel discussions with other government agency representatives
                            at the October meeting of Society for Research Administrators in Vancouver, British
                            Columbia. The panels focused on policy implementation, compliance issues, and
                            quality procedures for inquiries and investigations, with an emphasis on best practices
                            for compliance with Federal regulations. The IG’s presentation on Federal compliance
                            was so well attended, that a second impromptu presentation was scheduled the next
                            morning to meet the demand for this information.

                            External Requests for OIG Comments

                                  During the last six months, the OIG responded to several inquiries and requests
                            from other Federal organizations, including the General Accounting Office (GAO),
                            Office of Management and Budget (OMB), and President’s Council on Integrity and
                            Efficiency (PCIE):

                            •   In October, NSF and the OIG responded to a GAO A-133 survey to obtain
                                information about how the 24 Federal agencies subject to the Chief Financial
                                Officers Act are using audit reports prepared under the Single Audit Act. We
                                expressed our opinion that for NSF, the value of the A-133 audits are dimin-
                                ished because awards from smaller agencies are frequently not selected for
                                testing in the audit process.

                            •   In January, the OIG responded to a PCIE request for comments on the draft
                                Orange Book, delineates the responsibilities of the cognizant and oversight
                                agency for audit.

                            •   Our office provided comments to OMB on the draft 2002 OMB Circular A-
                                133 Compliance Supplement. The guidance is used by A-133 auditors in
                                identifying compliance requirements that should be tested for A-133 audits.

                            Cooperative Work

                                 We continue to assist other Federal agencies in the implementation of various
                            government-wide programs:

                            •   The President’s Management Agenda discusses a governmentwide initiative for
                                improving financial performance and establishing a baseline of erroneous



                   16
                                                                 OIG Semiannual Report March 2002




    payments to serve as a benchmark for monitoring progress. The OIG is partici-
    pating in a joint working group of members of the PCIE and Chief Financial
    Officer Council to address improper and erroneous payments. The work group
    will develop and benchmark methods to reduce improper payments made by
    Federal government agencies.

•   We met with representatives from the U.S. Department of Commerce OIG to
    share our experience in contracting external audits to independent accounting
    firms.

•   We provided information to the U.S. Treasury Department OIG about how we
    review and track audit resolutions for OMB A-133 audit reports.




                   Distinguished OIG retirees Helen Norris and
                        Roy Jones pose with Carol Taylor,
                             Investigative Specialist.




                                                                                         17
                                                            Audits & Reviews


     W
                  e are responsible for auditing grants, contracts, and
                  cooperative agreements funded by NSF, and for
                  reviewing agency operations to ensure that they are
conducted effectively and efficiently. Many factors are used to determine
what to audit or review, including requests by Congress, National Science
Board members, NSF managers, and other government officials. In
choosing our audits, we also consider NSF strategic goals and
management challenges, award recipient’s prior experience in managing
Federal awards, and priorities set by Federal financial regulatory bodies
and the OIG. We focus our audits and reviews on areas that present the
most management and financial risk to NSF in accomplishing its
scientific research and education goals effectively and efficiently.

     Our financial and compliance audits of award recipients determine
(1) whether costs claimed by these recipients are allowable, reasonable,
and allocable to NSF’s awards, and (2) if awardees had adequate
procedures and controls to ensure compliance with Federal laws and
regulations, NSF requirements, and the terms and conditions of the                  HIGHLIGHTS
award. Performance audits and reviews evaluate the effectiveness and
the efficiency of the administrative and programmatic aspects of NSF
and awardee operations. In addition, by law we conduct the annual
audit of NSF’s fiscal year financial statements, including evaluations of   Significant Reports   19
internal controls and data processing systems.                                 Financial
                                                                               Statement Audit    19
                                                                               Financial
Significant Reports                                                            Management of
                                                                               MRE Projects       22
Financial Statement                                                            Cost Sharing       23
Audit & Review of Information Systems
                                                                            Other Reports         30
     Improving financial management and information security has been
an important priority of the Federal Government for many years. The         Corrective Action
President’s Management Agenda identified improved financial                 Prompted by
management as one of five government-wide initiatives the new               Previous Audits       32
administration would emphasize. The President’s goal is to ensure that
Federal financial management systems produce accurate and timely            Work in Progress      35
information to support operating, budget, and policy decisions.



                                                                             19
Audits & Reviews




                                                    Since 1990, Congress has enacted several laws designed
          Audit Terms Defined                  to improve Federal financial management and information
                                               systems security. The Chief Financial Officer’s Act of 1990
There are three levels at which
deficiencies in internal controls identified   (CFO Act), as amended, requires that Federal agencies prepare
during the financial statement audit of        financial statements and the agency’s OIG, or an independent
federal agencies are reported. The more        public accounting firm selected by the OIG, audit these
significant       findings      (material      statements annually. The Government Information Security
weaknesses and reportable conditions)
                                               Reform Act (GISRA), enacted in October 2000, requires
are reported by the auditor in the “Report
on Internal Control” that is included in       agencies to perform annual reviews and report on their
the Auditor’s Report included in the           information system security programs. In addition, Inspectors
Accountability Report. Findings not            General are to provide independent evaluations of the
deemed to be as significant are reported       information security program and practices of their agencies.
to management in a Management Letter.
                                               We contracted with the auditing firm KPMG to perform these
                                               reviews.
Material Weakness
is a type of reportable condition in which           During this semiannual period OIG issued the Fiscal Year
the design or operation of one or more of
the internal control components does not
                                               2001 Independent Auditor’s Report which also reports the
reduce to a relatively low level the risk      results of the information security review. NSF received its
that misstatements of material amounts         fourth consecutive unqualified opinion on the financial
may occur and not be detected within a         statements. However, in its Report on Internal Controls over
timely period by employees in the normal       Financial Reporting, the auditors identified two reportable
course of performing their assigned
functions.
                                               conditions relating to (1) post-award grant and asset
                                               management, and (2) electronic data information systems.
                                               Award administration and data security were both identified as
Reportable Condition                           management and performance challenges in the Inspector
a matter that in the auditor’s judgement,
represents a significant deficiency in the
                                               General’s January 30, 2002 letter to the Chair of the National
design or operation of internal control,       Science Board and the Director of the National Science
that could adversely affect the                Foundation.
organization’s ability to record, process,
summarize and report financial data                 The audit revealed that although NSF has an adequate
consistent with assertions by
management in the financial statements.
                                               system of award management over its pre-award and award
(From OMB Bulletin 01-01 Audits of             phases, the agency does not have a comprehensive risk-based
Federal Financial Statements)                  internal grants management program to monitor its post-award
                                               phase. As a result, awardees’ use of Federal funds may not be
Management Letter Comment                      consistent with the financial, research or education objectives
a finding or recommendation for                of the grant and leave resources unprotected from waste, fraud,
improvement in internal controls and           and mismanagement. Federal agencies are required to develop
other management issues, identified            and execute management strategies that ensure programs and
during the audit, that does not reach the      operations account for results.
level of severity warranting a
determination of reportable condition or
 material weakness by the auditors.                 NSF grantee expenditures represent approximately 90
                                               percent of total NSF expenditures for the year. Audits of these



              20
                                                                  OIG Semiannual Report March 2002




expenditures continue to identify material instances of awardee non-compliance with
Federal regulations and grant terms and conditions and material internal control
weaknesses. Examples include: missing or insufficient documentation for costs claimed
on the awards; inadequate accounting systems which do not properly record
timekeeping, indirect costs, and cost-sharing; and inadequate monitoring of labor
effort and subawards.

     The audit report recommends that NSF improve its post-award monitoring by
establishing written policies and procedures to ensure awardees’ compliance with
award terms and conditions. A comprehensive risk based internal grants management
program would result in more in-depth reviews by NSF of both the administrative
and financial management practices of an institution, and its compliance with Federal
and NSF grant requirements.

       The finding also discusses the need for improved monitoring and reporting of at
least $200 million of assets owned by NSF but held by awardees. In most cases the
title to an asset purchased with grant funds transfers to the grantee, however in some
cases NSF retains ownership of the asset. Where NSF retains title to the equipment,
OMB Circular A-110 Section 33 requires grantees submit an annual inventory listing
NSF-owned property in their custody. Although some procedures are in place to
monitor these assets, there is no process within NSF either to check the accuracy of
the inventories submitted by grantees or to assess the condition of these assets.

      Inadequate tracking of NSF assets could result in potential loss, misuse, or theft,
as well as misstatement of their value on NSF’s financial records. Consequently the
audit report recommends that NSF (1) develop procedures to ensure that all grantees
report information on NSF-owned assets in their custody, (2) establish internal
procedures for an annual review of the asset inventory listings submitted by grantees
for accuracy and reasonableness, and (3) develop procedures to periodically confirm
the existence and condition of these assets.

      The audit also revealed certain vulnerabilities in NSF’s electronic data information
systems that increase the risk of loss, misuse, and unauthorized modification of
information or disruption of essential services, accidentally or intentionally, by external
or internal parties. These vulnerabilities may adversely affect NSF’s ability to produce
accurate data for decision-making and financial reporting, because they compromise
the reliability and availability of data recorded in or transmitted by NSF’s electronic
data information systems.

     Because of these vulnerabilities, the auditors determined that NSF was not in
compliance with Federal financial management system requirements identified in
the Federal Financial Management Improvement Act of 1996 (FFMIA) and OMB
Circular A-130, Management of Federal Information Resources. The audit report
recommends specific steps to improve access controls and NSF’s intrusion detection


                                                                                              21
Audits & Reviews




                   capabilities in order to address these information security vulnerabilities and ensure
                   NSF’s future compliance with this Act.

                        NSF management agreed to most of the auditors’ recommendations with respect
                   to post-award grant administration, asset management, and electronic data information
                   systems. However, they disagreed with the categorization of the findings as reportable
                   conditions and the non-compliance with laws and regulations. In the next semiannual
                   reporting period, we will issue our FY 2001 management letter, which will address
                   other matters involving NSF internal controls over financial reporting and award
                   management. It will also identify any outstanding recommendations from the FY
                   2000 management letter.

                   Financial Management of Major Research Equipment Projects

                        Providing effective management and oversight of large infrastructure projects
                   remains an important management challenge, as NSF has spent over $600 million
                   for major research equipment and facilities projects in FY 2001 alone. In prior
                   reporting periods, our audits identified needed improvements in NSF’s policies and
                   procedures for overseeing large facility projects. In response to concerns raised by
                   Congress, we have continued our audit work in this area during the current reporting
                   period and are tracking corrective actions taken by the agency to address this issue.




                                   Wayne Van Citters, Director, Division of Astronomical Sciences,
                                     escorts Tom Cooley, CFO, the Inspector General and other
                                        colleagues through an NSF infrastructure project.



                         New audit report issued. In an audit of a large facility project completed during
                   this period, we reported that difficulties in managing its instrument development
                   program resulted in the delay of delivery of sophisticated instruments critical to the
                   project for at least two years. These difficulties affected the project’s operations in
                   several ways. First, the delay made it necessary for the project to borrow less-advanced
                   “visitor” instruments to begin operations on schedule. But without the instruments


          22
                                                                 OIG Semiannual Report March 2002




in the original plan, the full commissioning of the project was delayed, the project’s
efficiency rate was reduced, and the project may not be as competitive as hoped.
Additionally, the delay cost the project $4.2 million in unplanned expenditures: $3.6
million for “restarting” instrumentation, and $600,000 to adapt and redesign visitor
instruments. Project managers developed a new management plan for the project
that should help ensure that future instruments are delivered on time and within
budget.

      Audit in progress. In an audit currently underway, we are assessing the financial
management and controls over several large facilities projects. The audit was requested
by the Senate Subcommittee on VA, HUD and Independent Agencies of the Senate
Appropriations Committee, who asked that we determine if NSF is solely using its
Major Research Equipment appropriation to fund construction and acquisition costs
for major research equipment and facilities. We have identified several issues regarding
needed improvements in NSF’s financial policies and management for these projects
and provided NSF management with a discussion draft report to facilitate the
management comment process on our findings and recommendations. We plan to
issue this audit in May, 2002.

      Status of NSF’s New Project Management Policies. In the March 2001
Semiannual Report (pp. 6-7), we reported on our audit of the financial management
of a large facility project. In that report, we recommended several actions to help
NSF improve its large capital project administration, and to resolve financial issues
related to the specific project we reviewed. As of the end of this reporting period, five
of seven recommendations still have actions in progress. Completed actions include
addressing the project’s budget approval issues and issuing interim project management
guidelines. Pending actions include creating and filling a new position that will report
to the Chief Financial Officer, with responsibilities for developing and implementing
guidelines and policies for managing and overseeing NSF’s large facilities projects.
They also include developing new facilities guidelines and manuals, and subsequently
training NSF managers who are responsible for overseeing these large projects. At
this time, the pending actions are not expected to be completed until the end of fiscal
year 2002.

Cost Sharing

     Issues related to cost sharing commitments comprise one of the top ten
management challenges facing NSF. Recently we undertook two audit initiatives to
gauge the extent of the problem. In our September 2000 Semiannual Report (pp. 9-
10) and our March 2001 Semiannual Report (p. 8), we reported overvalued and
unsupported cost sharing respectively at two campuses of a western state university
system. The first initiative focused on five additional campuses within the university
in order to determine whether cost-sharing problems were systemic. In our September



                                                                                            23
Audits & Reviews




                     2001 Semiannual Report we reported on three of the audits at this system (pp. 23-
                     25), and we now report on the last two.

                          The second cost-sharing audit initiative focused on eight geographically dispersed
                     educational institutions that had promised $500,000 or more of cost sharing. The
                     sample included both large research universities with hundreds of NSF awards, and
                     small colleges with only one award. We reported our progress on four audits in our
                     September 2001 Semiannual Report (pp. 25-26); in this semiannual report we report
                     on two more. In the next semiannual report we plan to present a summary of our
                     two cost-sharing initiatives.

                           During this reporting period NSF management also resolved six audits involving
                     cost sharing/industrial contributions, five of which were reported in our September
                     2001 Semiannual Report (pp. 23-28). For the sixth, we are both reporting on the
                     audit and NSF management’s resolution in this semiannual report.

                           The table below shows that of $16.5 million of promised cost sharing promised
                     by five educational institutions, $1.5 million of claimed cost sharing was not supported
                     in accordance with Federal cost principles:


                                              Common Cost Sharing Problems
               Awardee       Promised         Questioned         Inadequate           Time       Cost-Sharing          Audited
                               Cost           or At-Risk         Accounting           And        Certification        Award (s)
                              Sharing        Cost Sharing            For             Effort        Problem          Not Reported
                                 $                 $            Cost-Sharing        Problem                        In A-133 Audit


             Western          7,478,961           417,887                               X               X                 X
             State
             University

             South            3,250,839                375                                               X                X
             Central
             University

             Northeastern     2,966,526             48,408            X                 X               X
             University*

             Western          2,333,098           601,439             X                 X                X
             State
             University

             Central            515,500           461,740             X                 X               X
             U.S. College

             Total           16,544,924         1,529,849
          *This university commingled cost sharing with NSF costs, which contributed to an excess claim of $48,408 of costs NSF
          reimbursed to the University.


          24
                                                                 OIG Semiannual Report March 2002




     Questioned and Unsupported Costs. Federal guidelines state that cost sharing
must be verifiable from the recipient’s records, not included as contributions for any
other Federally-assisted project, and necessary and reasonable for the accomplishment
of project objectives. When audits question the allowability or underlying support of
a recipient’s claims for cost sharing, the recipient’s ability to meet its cost-sharing
obligation may be jeopardized. In these circumstances, either the intended scope of
a project may be compromised or NSF may pay more than its share of the costs, thus
reducing its opportunities to fund alternative projects. The most common reason for
unallowable costs in the above audits was lack of documentation due to inadequate
accounting for cost sharing and time-and-effort reporting problems.

      Inadequate Accounting For Cost-Sharing. Federal requirements state that
awardees shall have financial management systems that provide an accurate, current,
and complete disclosure of the financial results of Federally-sponsored programs. In
our reviews, we have found that many major institutions have determined that the
most effective way to ensure compliance with Federal requirements and the integrity
of claimed cost sharing is to establish a financial accounting system that can separately
track the cost-sharing expenditures for each NSF award. However, three of the
institutions in the above table did not have systems that could separately track cost
sharing, and either a) commingled costs charged to NSF for reimbursement with
costs the awardee contributed in the form of cost sharing or b) commingled cost-
sharing expenses, reimbursable costs, and unrelated expenses in departmental accounts.
As a result of both kinds of commingling, it was difficult to determine the cost-
sharing amounts institutions contributed for individual NSF awards. Specific examples
follow:

•   A northeast university commingled reimbursable and cost shared expenses in
    one account, and did not identify cost sharing expenses when incurred, result-
    ing in inaccurate cost-sharing records, frequent revisions, and a $48,408
    overcharge of direct costs to NSF. The university subsequently installed an
    accounting system that segregated the reimbursable portion of costs from
    those the university contributed as cost sharing. However, its new software did
    not correctly calculate cost sharing and overhead on subcontracts, and the
    university was trying to obtain modifications from the software vendor.

•   A campus in the western state university system commingled cost-sharing
    expenses with other non-project costs in departmental accounts, did not know
    until the time of our audit whether it had met its cost-sharing obligations on
    30 NSF awards, and had to reconstruct six years of cost-sharing data. We
    recommended that prior to making any new awards to this organization, NSF
    require the university to develop written policies and procedures to ensure that
    the cost sharing from all sources for each award is separately identified and that
    the campus implements adequate controls to track and document cost sharing.



                                                                                            25
Audits & Reviews




                   •   A college in the central U.S. also commingled NSF reimbursable charges,
                       cost-sharing expenses for the NSF award, and other unrelated expenses in
                       departmental accounts. We considered this lack of internal controls to be a
                       material weakness, and we recommended that prior to making any new awards
                       to the college, NSF ensure that the college has a system that complies with
                       Federal requirements.

                         Time and Effort Reporting Problems. Federal guidelines state that recipients
                   of Federal funds shall have payroll-distribution systems that verify, after-the-fact, the
                   time that professors and professional staff spend on specific Federal awards. In most
                   cases, labor costs are the single largest line item in an NSF award budget. Our audits
                   this period found that four award recipients did not comply with Federal requirements
                   for labor effort accounting and reporting, because of inexperience with or lack of
                   understanding of the applicable cost principles. Payroll-distribution-system
                   inadequacies reduce assurance that claimed labor costs are allocable to the NSF awards,
                   and they can result in unallowable, questioned, or disallowed costs.

                   •   A western state university foundation did not confirm faculty release time
                       claimed as cost sharing on 10 of 28 NSF audited awards for up to six years
                       after the fact. We recommended that NSF require the foundation to revise its
                       policies and procedures to ensure that faculty release time is properly identified
                       in the proposal and monitored throughout the award period.

                   •   A second western state university campus also did not have an adequate system
                       to track, document, or certify faculty release time, which constituted 22
                       percent of the total cost sharing contributed to 30 audited NSF awards; and it
                       had to reconstruct and certify six years of records. Because of the questionable
                       reliability of these records, we were unable to substantiate $522,025 of faculty
                       release time. We recommended that prior to making any new awards to the
                       campus, NSF should require it to provide written policies and procedures that
                       comply with Federal requirements for verification of faculty release time.

                   •   At a northeastern university the official responsible for confirming after-the-
                       fact time spent on the NSF audited award was not always required to complete
                       the confirmation. We recommended that NSF work with the university’s
                       oversight agency to ensure compliance with applicable Federal cost principles.

                   •   A small college in the central U.S. also did not have a system to certify time
                       and effort, although we did not question costs, because the employees who
                       worked on the grant worked on it exclusively. However, we considered the
                       lack of a labor-distribution system that complies with Federal requirements a
                       material internal control weakness because of the possibility that employees
                       could have worked on other projects. We recommended that prior to making



          26
                                                               OIG Semiannual Report March 2002




    another award to the college, NSF ensure that it has established a payroll-
    distribution system that complies with Federal after-the-fact certification
    requirements.

     Cost-Sharing Certification Problems. NSF requires that in all cases where
grantee cost-sharing commitments are $500,000 or more, an Authorized
Organizational Representative (AOR) report and certify the amount of cost sharing
as part of the annual progress and final project reports. When award recipients do
not comply with these certification requirements, NSF has less assurance that cost
sharing is being met.

     Of the audits reported in the above table, we found that two of the award
recipients did not file any cost sharing certifications because they were unaware of
NSF reporting requirements or did not have written policies and procedures requiring
compliance. We recommended that NSF ensure that the award recipient establishes
written policies and procedures requiring certification; or that the institution
understands and complies with NSF’s certification requirements.

     In two other cases, the amount of cost sharing reported was inaccurate, and in a
third case the cost-sharing certifications were not signed by an AOR:

•   In the first instance of inaccurate cost-sharing reporting we recommended that
    NSF ensure that the western state university campus develop written policies
    and procedures requiring cost-sharing certification.

•   In the second instance, we recommended that NSF ensure that a northeastern
    university certify only to actual cost sharing, not to actual, estimated, and
    obligated amounts in one sum.

•   Finally, one western state university foundation submitted cost-sharing reports,
    but they were not signed by an employee at a management level sufficient to
    commit the foundation to the conduct of a project or to ensure its adherence
    to NSF’s requirements. We recommended that NSF require the foundation to
    revise its policies to ensure that its AOR has sufficient authority, management
    position, and independence to certify the annual cost-sharing reports.

     A-133 Audit Limitations. Federal guidelines require that non-Federal entities
that expend $300,000 or more in a year in Federal awards shall have a single audit
(the A-133 Audit) performed by independent auditors, such as CPA firms or state
auditors. Based on a review of the awardee-prepared Schedule of Federal Award
Expenditures, the A-133 auditors decide which Federal programs to audit each year.
Selection criteria include expenditure thresholds, risk analyses, and whether programs
administered by the awardee are part of a “cluster,” defined as a grouping of closely



                                                                                         27
Audits & Reviews




                   related programs that share common compliance requirements. One of the clusters
                   relevant to NSF is the Research and Development (R&D) cluster. Inclusion of smaller
                   NSF R&D awards in this cluster increases the chance that NSF awards may be reviewed
                   as part of the A-133 audit.

                         For the awards we audited, we wanted to determine whether the A-133 auditors
                   had reviewed NSF awards, and in particular whether the audit reviewed for cost-
                   sharing compliance. In one case, the university erroneously did not include eight
                   NSF R&D awards in its R&D cluster; as a result, the awards were not reflected in the
                   listing provided to the A-133 auditors. Therefore none of these awards were subject
                   to testing under the A-133 audit. In another case, the awardee did not list the NSF
                   grant on its Schedule of Federal Award Expenditures, and the A-133 auditors were
                   not aware of it. When award recipients do not properly cluster or list NSF awards for
                   A-133 auditors to review prior to their selection of audit samples, the awards are
                   unlikely to be tested in the A-133 audit process.

                        Six Cost Sharing Audits Resolved. Four of the six audits that were resolved
                   during this reporting period were of campuses in the western state university system,
                   one was of a southwestern university in the geographically diverse audit initiative,
                   and the last was a northeastern university that provided industrial contributions.

                   •   We have reported above on the inadequate time and effort confirmation, the
                       improperly signed cost-sharing certifications submitted to NSF, and the A-133
                       finding for one campus of a western state university, which received 28 NSF
                       awards requiring $7.5 million of cost sharing. During audit resolution, NSF
                       found that the campus had implemented adequate policy and procedural
                       changes to document and certify faculty release time, to ensure that a represen-
                       tative with sufficient authority signs the cost-sharing certifications to NSF, and
                       to cluster R&D awards.

                   •   At the second western state university campus, NSF funded 32 awards totaling
                       $11.3 million, requiring $5.5 million in cost sharing. During audit resolution
                       NSF sustained $6,759 of questioned cost-sharing costs incurred after the
                       expiration of four awards, for which the campus agreed to make repayment or
                       adjust its NSF account. Regarding the findings that the campus had not
                       certified its cost sharing, and that some NSF R&D awards were not included
                       in the R&D cluster, NSF found that the campus’ modifications of its cost-
                       sharing tracking system and its agreement to cluster awards correctly satisfied
                       our recommendations.

                   •   The third western state university campus met its cost-sharing obligations on
                       three awards for which NSF provided $363,771, and the campus promised to
                       provide $112,141 of additional cost sharing. During audit resolution, NSF



          28
                                                                OIG Semiannual Report March 2002




    found that the campus had satisfied two recommendations by agreeing to
    classify R&D awards properly, and to clarify in its policies and procedures that
    the university, not the principal investigator has primary responsibility for
    adherence to award conditions. Regarding our recommendation that the
    campus update its cost-sharing policies and procedures, NSF flagged the
    campus for review of its revised procedures before making another award to
    this university.

•   At the fourth western state university campus, NSF provided $1.3 million and
    required $2.5 million on an award to develop a high-performance statewide
    computer network. We found $1.2 million of the cost sharing was unallowable
    because the campus incurred $1.1 million after the expiration date of the
    award, and could not provide time-and-effort reports to support $131,915 in
    claimed faculty release time. During audit resolution, NSF received additional
    documentation for the faculty time and accepted the $1.1 million of post-
    award cost sharing, which had indisputably been provided. NSF also deter-
    mined that the campus adequately addressed our recommendation to establish
    written policies for financial management, subrecipient monitoring, and cost-
    sharing certifications.

•   NSF resolved a cost-sharing audit of a western state university, which had
    received $3.1 million for three awards and required $1.9 of cost sharing. The
    agency (1) sustained $96,764 of questioned costs relating to inadequate docu-
    mentation, but offset them with other allowable cost-sharing the university
    provided during audit resolution; (2) determined that the university had
    adequately responded to our recommendation to maintain records for three
    years after final reports are filed; and (3) flagged the university in NSF’s system
    to review its final changes in written policies and procedures for monitoring
    department-level cost sharing.

•   During this reporting period NSF resolved our findings and recommendations
    for a northeast engineering research center (ERC) that overstated industry
    support. We did not question any costs, but recommended that NSF (1)
    require the university to develop policies and procedures to adequately account
    for and document in-kind contributions, (2) independently verify the accuracy
    of the ERC’s annual report, and (3) ensure that all reported industrial members
    are members as defined by written membership agreements. NSF management
    determined that the university adequately responded to all three recommenda-
    tions.

     We also made recommendations to NSF for internal improvements in its
management of ERCs overall. NSF submitted a corrective action plan that included
increased scrutiny of ERC annual reports and interactive web-based training for Center



                                                                                          29
Audits & Reviews




                   staffs. We determined that the plan satisfied most or our recommendations, but
                   postponed final action until we can review NSF’s proposed written protocol for the
                   review of performance data.



                   Other Reports
                        During this semiannual period, we completed two contract audits that were
                   requested by NSF’s Division of Contracts, Policy and Oversight and one audit of two
                   cooperative agreements that was considered “high risk” to determine whether costs
                   claimed were reasonable, allocable, and allowable. We also reviewed findings related
                   to NSF grants contained in numerous A-133 audit reports.

                        In general, we found that these awardees needed to strengthen internal controls
                   and improve compliance with NSF award requirements and Federal regulations.
                   Weaknesses were found in the areas of labor reporting, indirect costs, and subrecipient
                   monitoring. In addition, we found a lack of adequate documentation, approvals,
                   required audits, and compliance with funding restrictions and program income
                   reporting requirements. These audits indicate the need for NSF to continue to 1)
                   focus on post-award administration as a management challenge and 2) improve
                   monitoring and oversight of its awards to ensure compliance with NSF award
                   requirements and Federal regulations.

                        A summary of the results for these audits is provided below. All audit matters
                   have been forwarded to NSF’s Division of Contracts Policy, and Oversight for audit
                   resolution.

                   Eastern Non-Profit Needs to
                   Improve Controls and Compliance Procedures

                        We audited two NSF cooperative agreements issued to an eastern not-for-profit
                   organization for $104.6 million whose purpose is to promote and conduct geophysical
                   investigations of the earth’s interior and engage other organizations into exchanging
                   information and knowledge in the earth sciences. We were unable to issue a clean
                   opinion on the allowability of $98.5 million in total claimed costs, because the
                   organization did not:

                   •   maintain records to support $7.9 million in claimed costs for one full year
                       under one NSF award;
                   •   segregate and allocate direct and indirect costs properly as required by Federal
                       cost principles; and
                   •   maintain an adequate labor reporting system.



          30
                                                                 OIG Semiannual Report March 2002




     In addition, we also found that the organization did not: (1) have proper
procedures in place to ensure adequate monitoring over $48.3 million in funding
provided to subrecipients; (2) account for program income properly or report this
income to NSF as required; and (3) obtain NSF’s prior approval for changes in its
President’s fringe benefit plan.

     Subsequent to the audit, the organization reported to NSF that corrective actions
had been taken to address our recommendation to (1) maintain documentation to
support all claimed costs, (2) improve labor reporting procedures, and (3) revise
accounting procedures to segregate and allocate direct and indirect costs as prescribed
by Federal cost principles. The organization also stated that its new cooperative
agreement with NSF does not consider the dues collected as program income. NSF’s
Office of Contract, Policy and Oversight will resolve all of these recommendations
with the grantee.

Southern Consortium Claims $313,978 Excessive Indirect Costs

      NSF awarded a contract to a southern consortium to provide facilities and
personnel for support and operation of the Graduate Research Fellowship Program.
The contractor claimed costs and fees totaling $12,406,857 under the contract. Our
audit questioned $313,978, or 20 percent, of the contractor’s claimed indirect costs.
We found that the contractor used provisional rates in the contract to bill NSF for
indirect costs without adjusting its claim based on final indirect cost rates as required
by Federal regulations and the contract agreement. We also found that the contractor
failed to obtain audits for fiscal years 1993, 1994, 1999, and 2000, as required by
OMB Circular A-133. We recommended that NSF direct the contractor to comply
with the Federal audit requirements and to limit its claimed costs to just those that
are allowed by contract terms and conditions. The contractor agreed with our finding
for obtaining audits but disagreed with the amount of costs questioned.

Contractor Erroneously Uses Major Research Equipment Funds

      To support its research work in Antarctica, NSF contracts with an outside
company to provide the logistics, operations, engineering, and construction support
for its United States Antarctic Program. In an audit of the former contractor, we
found that the company had improperly used approximately $11.9 million in Major
Research Equipment (MRE) funds, restricted by NSF for capital construction
expenditures, to pay for operations and contract closeout costs. The problem occurred
because the contractor placed the MRE and operating funds in a single bank account,
thereby losing its ability to observe the restriction on the MRE funds. NSF identified
the problem during its contract closeout discussions.




                                                                                            31
Audits & Reviews




                         To correct the error, the company returned to NSF $15.4 million of MRE
                   funds and other unspent funds remaining on the contract. Our audit subsequently
                   found that the $11.9 million the company spent for operations and contract closeout
                   costs were valid and allowable costs under the contract. Based on this finding, NSF
                   issued a contract modification to the company authorizing full NSF reimbursement
                   to the company for these costs. To prevent future problems, we recommended that
                   NSF direct the current contractor to maintain separate bank accounts for operations
                   and MRE activity and develop procedures to ensure that funds are properly identified
                   when withdrawn from NSF accounts. We also recommended that NSF establish
                   internal control and oversight procedures to monitor contractor use of MRE and
                   other types of funds obligated during the performance of the contract.

                   A-133 Related Reviews

                        OMB Circular A-133, issued pursuant to the Single Audit Act of 1984, as
                   amended, sets forth standards for attaining consistency and uniformity among Federal
                   agencies for the audit of state and local governments, educational institutions, and
                   nonprofit organizations that receive Federal awards. Reports prepared by independent
                   auditors in accordance with this circular are referred to as A-133 audits.

                        During this reporting period, we reviewed 90 A-133 audit reports with NSF
                   expenditures totaling $438 million dollars for fiscal years 1997 through 2001. The
                   majority of reports were for fiscal years ending in 2000 or 2001. Of the 90 reports,
                   41 identified questioned costs, internal control weaknesses, and/or non-compliance
                   with Federal laws and regulations. In two reports, the auditors questioned $128,463
                   of NSF-funded costs related to possible fraudulent travel claims and improperly
                   transferred labor and tuition costs.

                        Our office also examined 43 Management Letters, which report internal control
                   weaknesses that are generally less significant than those reported in the A-133 report.
                   These letters discussed issues related to the adequacy of grantees’ financial management
                   systems, policies and procedures, as well as business continuity plans, information
                   technology security and other IT issues.



                   Corrective Action
                   Prompted by Previous Audit Findings
                   NSF Grant Terms Enforced by Courts in Two Separate Cases

                        In two recent court decisions, grantees that sued NSF to avoid reimbursing the
                   government for costs improperly claimed were ordered to repay the disputed amounts.


          32
                                                                 OIG Semiannual Report March 2002




The Office of General Counsel, the OIG and the Office of Budget, Finance and
Award Management worked closely with the Department of Justice in the successful
litigation of these cases, thereby ensuring that the grantees fulfilled their obligations
under the grant agreement.

     Court Orders Payment by University of $139,152 in Questioned Cost Sharing.
In our March 1999 Semiannual Report (pp. 24-25), we reported on an audit of a
University Foundation that found that the auditee could support only $218,382 of
the $527,240 of claimed cost sharing. In April 1999, NSF sustained the audit finding
and requested the Foundation repay $145,622 of excess NSF funding it had received.
The Foundation appealed the agency’s decision through the NSF appeal process,
where the repayment amount was reduced to $139,152. Soon after NSF’s appeal
decision was issued, the Foundation sued NSF in the U.S. District Court.

     The Court affirmed NSF’s decision that the Foundation had failed to comply
with the terms of its NSF grant and the Foundation was directed to refund $139,152
to NSF. The District Court’s decision was appealed by the Foundation. In January
of this year, the Court of Appeals affirmed in a per curium opinion the District
Court’s conclusions of law:

    “Like the district court, we are unable to find support for the Foundation’s
    argument ... [The statutory standard advocated by the Foundation] simply does
    not speak to the fact that the Foundation contractually agreed to share costs in
    the amount of $583,507, an amount that represented just over half of the
    estimated costs of the project. Nor does the Foundation argue that it satisfied
    its obligation in that regard. As a result of the Foundation’s breach of its
    obligation to share costs in the amount of $583,507, the agency sought a
    partial refund of the money it provided to the Foundation so that the final
    amounts expended by each party approximated the party’s pro rata share as
    reflected in the award letter. As we see it, NSF was well within its contractual
    rights to seek that relief ... when the award letter unequivocally stated that as a
    condition of receiving the grant, the Foundation had to “agree to share in the
    costs of the project.” ... [W]e affirm the district court’s order granting summary
    judgment to NSF.”

      NSF Wins 8 Year Old Case to Force Repayment of Unsupported Costs. An
audit of a grantee performed over a decade ago finally resulted in a decision by the
U.S. Court of Federal Claims that the grantee must repay nearly $50,000 to the
Federal government. During the audit of a research grant awarded to a for-profit
company, we reviewed $146,761 in claimed costs, and questioned $112,065 for lack
of support. After the company provided some additional documentation, NSF issued
a final notice to the company to repay $46,171. However, in December 1994, the
company filed a breach of contract complaint against NSF in the Court of Federal



                                                                                            33
Audits & Reviews




                   Claims, to which NSF filed a counterclaim. As a result of the court’s decision in
                   January 2002, the company must repay $46,902 to the government.

                   NSF Implements Most Past CFO Audit Recommendations

                        The FY 2001 financial statement audit reviewed the status of all open
                   recommendations from management letters of prior years. NSF management
                   implemented corrective actions that resulted in closing twenty of the twenty-three
                   findings that were reported in the FY 2000 Management Letter, leaving only three
                   recommendations open. While two are considered relatively minor, the third concerns
                   the property management system maintained by NSF’s United States Antarctic
                   Program, which does not have a fully defined, tested and implemented information
                   security program. NSF management has indicated that they have developed milestones
                   to address the auditor’s recommendations.

                   Midwestern Contractor Agrees to Repay $229,627

                         In our September 2001 Semiannual Report (p. 18), we reported on an audit of
                   a midwestern for-profit contractor that received three contracts to conduct surveys
                   of scientific and engineering research facilities for NSF’s Division of Science Resources
                   Studies. We questioned $337,589 or approximately 10 percent of the $3.3 million
                   in claimed costs because the contractor could not support expenses included in the
                   indirect cost pool. This caused the final indirect cost rates to be overstated. In
                   addition, we found an instance of material noncompliance with Federal regulations
                   and material deficiencies in the contractor’s internal control structure. NSF sustained
                   $229,627 of costs questioned in the audit report. The contractor agreed to repay the
                   full amount.

                   International Grantee
                   Strengthens Controls Over NSF Funds

                          In the September 2001 Semiannual Report
                   (pp.7-8), we reported on our audit of an
                   international research institute that for several years
                   has received annual grants from NSF to support
                   its research programs. We found that the institute’s
                   financial controls and oversight, by both its own
                   governing council and the U.S. member
                   organization, were inadequate to effectively
                   safeguard NSF funds which were invested in

                                             Audit staff visit international
                                                        research institute.



          34
                                                               OIG Semiannual Report March 2002




speculative stocks. We recommended that NSF suspend funding to the institute
until it had significantly strengthened those controls and management oversight.
According to NSF, the institute has made operational improvements which are
responsive to the audit recommendations. Continued funding for the institute is
currently under review.

Southern College Must Reimburse NSF for Overpayment of $387,471

      In our September 2001 Semiannual Report (pp. 10-11), we reported the results
of our review of $2.6 million of costs claimed by a southern state university that
received three Directorate for Education and Human Resources awards. The awardee
promised to contribute a total of over $15 million in cost sharing on its three NSF
awards. We questioned costs totaling $387,471 of which $363,560 related to
overpayment by the awardee to it subcontractors on the NSF award. We also reported
several instances of material non-compliance with NSF award and Federal regulations.
In audit resolution, NSF sustained the entire amount of $387,471. The awardee has
already initiated corrective action to ensure compliance with NSF award and Federal
regulations in the areas of effort reporting, cost sharing, subcontract approvals, and
monitoring and meeting funding targets specified in NSF awards.



Work in Progress
     The following are a list of projects currently being performed or supervised by
members of our audit staff. Upon completion, the results will be reported in future
semiannuals:

Workforce Planning Activities

      The Senate Subcommittee on VA, HUD, and Independent Agencies requested
that the OIG analyze the adequacy of the agency’s staffing and management plans in
light of the efforts to expand NSF over the next five years. Our review will determine
(1) to what extent NSF conducts workforce planning activities, (2) whether the agency’s
process is consistent with guidance provided for government agencies, and (3) what
actions NSF is taking to improve its workforce planning activities and prepare for
possibly significant increases in its budget. The results will be reported in our next
Semiannual.

Antarctic Safety and Health Program

    An audit of the Antarctic Safety and Health Program was initiated in the fall of
2001. The audit was prompted by our assessment of this activity as high-risk due



                                                                                          35
Audits & Reviews




                   mainly to the harshness and remoteness of the environment. The effectiveness of the
                   program will be evaluated primarily by checking compliance with the safety and
                   health policies of the contractor as well as those of NSF. In addition, an expert in the
                   field of remote medicine has been retained to advise our staff on the appropriateness
                   of the current policies.

                   Award Administration Best Practices

                          Assessing scientific progress and ensuring effective financial and administrative
                   management are critical elements in managing NSF’s grant programs. To assist NSF
                   in its efforts to address this management challenge, we are conducting a best practices
                   review during this reporting period. We are surveying 6 to 10 grant-making
                   organizations, both Federal and private, to document their management and oversight
                   policies and practices. From this information, we will suggest best practices for NSF
                   to consider for improving its award administration practices.

                   Urban School District Reviews

                         One of the primary efforts of the Directorate for Education and Human
                   Resources through its Division of Educational System Reform (ESR) is to manage
                   large-scale programs designed to strengthen the science, mathematics, and technology
                   education infrastructure of urban centers. In fiscal year 1999, ESR established its
                   Urban Systemic Program (USP) in science, mathematics, and technology education
                   through the merger of two of ESR’s existing efforts: the Urban Systemic Initiative
                   (USI) Program and the Comprehensive Partnerships for Science and Mathematics
                   Achievement. Through this combined effort, NSF seeks to stimulate interest, increase
                   participation, improve achievement, and accelerate career advancement and success
                   of all students of the participating urban school districts. In August 2000, ESR had
                   24 active USP/USI awards ranging in value from $1.2 million to $15.1 million. The
                   estimated total value of the 24 active awards was approximately $248.9 million. The
                   annual NSF funding of USP/USI awards ranged from $400,000 to $3,000,000,
                   with the awards’ duration limited to five years.

                        Prior OIG audits of USI awards disclosed significant questioned costs, compliance
                   problems, and internal control weaknesses. Specifically, from our analysis of seven
                   USI awards audited in fiscal years 1997 through 2000, we found that the audits
                   identified significant questioned costs in the areas of salaries and fringe benefits,
                   subawards, and other costs. In addition, we identified problems related to the awardees
                   meeting their cost sharing requirements and other compliance and internal control
                   problems in each of the audits.




          36
                                                                OIG Semiannual Report March 2002




     We believe that the USP/USI program continues to pose administrative risks
for NSF given the large dollar value of each award and the significance of the problems
we identified in our past audits. Therefore, we have initiated audits of six USI/USP
awards that represent $58.3 million of the $248.9 million (23 percent) active USP/
USI awards in August 2000. The objectives of the audits are to determine whether
USP/USI awardees (1) have adequate systems to safeguard NSF funds, (2) properly
account for expenditures under the award agreements, and (3) are in compliance
with NSF and Federal rules and regulations and the terms and conditions of the
award documents.

Audits of Community College Awardees

     Community colleges historically have received approximately $30 million to
$40 million in NSF funding. During past surveys and audits of community colleges,
we identified higher than average questioned costs charged to the awards and
improvements needed to ensure compliance with NSF and Federal requirements and
internal controls.

     In fiscal year 2001, we initiated audits of 13 community college awardees that
had received 75 NSF awards totaling $44.8 million. These audits include 17 NSF
awards for various programs totaling $29.7 million with proposed cost sharing of
$15 million. The community colleges received NSF awards from various NSF
programs. The purpose of the audits is to determine whether the community colleges
have adequate systems to safeguard NSF funds, account for payments and expenditures
under the awards properly, and comply with NSF policies and the terms and conditions
of the NSF awards.




                                                                                          37
                                                                                      Investigations


      T
              he Office of Investigations handles allegations of fraud,
              waste, abuse, and mismanagement in NSF programs and
              operations, as well as allegations of research misconduct
associated with NSF proposals and awards. We strive to work in
partnership with agencies and awardee institutions to resolve issues
whenever possible. As appropriate, we recommend administrative action
to NSF’s adjudicator, the Deputy Director, or refer our investigations
to the Department of Justice or other prosecutorial authorities for
criminal prosecution or civil litigation. In this Semiannual Report, we
present an overview of investigative activities, including civil and criminal
investigations, findings by the Deputy Director, significant administrative
cases, and focused reviews. We also report on the implementation of
NSF’s revised research misconduct regulation and improvements to the
investigative process.



Summary of Case Activity
      Allegations of wrongdoing are classified according to the issues
raised. Where there is insufficient evidence for initial classification, the
matter may be handled as a preliminary case. During this semiannual
period we received 98 allegations that were initially classified as:
preliminary (49), administrative (35), or civil/criminal (14) 1 cases. We                           HIGHLIGHTS
closed 36 preliminary cases after determining there was no reason to
warrant re-classification. We closed 11 preliminary cases that were                         Summary
reclassified as administrative (8) or civil/criminal (3) cases.                             of Case Activity      39
     We closed 16 civil/criminal cases that involved violations of Federal
laws, such as false statements and embezzlement or theft. When we                           Civil and Criminal
find evidence that suggests wrongdoing, we refer the case to the                            Investigation         40

                                                                                            Administrative
                                                                                            Investigations        46
1
  After initial review and fact-finding, preliminary cases are closed for either: 1) lack
of evidence, 2) disproved allegations, 3) referral to management, or 4) re classifica-
tion as administrative or civil/criminal cases. Administrative issues include research      Other Investigative
misconduct, employee misconduct; and cases that do not have indications of civil/           Activities            50
criminal issues. Civil/criminal issues include fraud, theft, or violations of other
Federal laws.


                                                                                            39
Investigations




                 Department of Justice (DOJ) for prosecution. We referred 6 cases this period to the
                 DOJ. (See a description of selected criminal and civil cases we closed this period
                 below.)

                        The majority of our closed administrative cases involved allegations of research
                 misconduct. Under our research misconduct regulation, we initiate an inquiry to
                 determine whether an allegation has sufficient substance to warrant an investigation.
                 If it appears that research misconduct has occurred, we send a report to NSF’s Deputy
                 Director for adjudication. (See p. 46 for a description of selected administrative
                 cases closed this period.)

                 Freedom of Information Act and Privacy Act Requests

                        Our office responds to requests for information contained in our files under
                 the Freedom of Information Act (“FOIA,” 5 U.S.C. § 552) and the Privacy Act (5
                 U.S.C. § 552a). During this reporting period, we received and responded to seven
                 requests. Four were denied because the information requested could not be provided
                 under FOIA. For example, we denied a request for all investigative records pertaining
                 to a named individual based on FOIA exemptions (b)(6) and (b)(7)(c), which stipulate
                 that information is not subject to disclosure if it would result in an unwarranted
                 invasion of personal privacy. In addition, to become more responsive to FOIA requests,
                 we are streamlining our procedures for responding to routine requests and developing
                 web-based guidance for formulating a request.



                 Civil and Criminal Investigations
                 Social Security Numbers Stolen

                       Shortly after participating in an NSF awards conference held in Washington
                 D.C., attendees filed complaints with NSF staff and the OIG that they were victims
                 of identity theft. We coordinated our efforts with those of state law enforcement
                 officials already underway, and we concluded that the victims’ social security numbers
                 (SSNs) were stolen through information they had provided to NSF as part of the
                 registration process. The investigation disclosed that there were many with the
                 opportunity to steal conference registration data, including NSF staff, a contractor,
                 and a subcontractor. As a result of these thefts, the NSF funding program modified
                 its procedures to ensure that in the future, the SSNs of all conference participants
                 will be expunged from the event database. In addition, the program issued an advisory
                 and apology to the conference attendees.

                       Identity theft and efforts to reduce the abuse of social security numbers are
                 receiving increased attention by the IG community and GAO. In our September


        40
                                                                 OIG Semiannual Report March 2002




1997 Semiannual Report (pp. 30-31), we discussed a case in which an NSF employee
used another employee’s SSN to obtain multiple fraudulent credit card accounts. In
the course of that investigation, we learned that many NSF employees have easy
access to the SSNs of NSF employees, PIs, and recipients of individual awards. We
recommended that NSF minimize use of SSNs as identifiers. As a result, NSF issued
a Policy Regarding Sensitive Information (NSF Bulletin No. 99-08) that provided
NSF staff with instructions on the appropriate use and confidential handling of social
security numbers. We are now urging NSF to undertake agency-wide implementation
of stricter practices to prevent future SSN thefts.

Purchase Card Abuse

      Like the concerns about identity theft, the inappropriate use of commercial
purchase bankcards, part of the GSA SmartPay program, has been the subject of a
recent OIG audit report, and several GAO reports. In 1989, purchase cards were
made available to all Federal agencies, through a contract administered by GSA, for
micro-purchases (below $2500) of supplies or services. This program simplifies the
purchasing and payment process and reduces the transaction cost associated with
small acquisitions. At NSF, the purchase card is issued through the Bank of America,
and the Division of Administrative Services administers the program. The primary
participants are individual cardholders and approving officials designated by their
organizational units.

     In a recent case involving purchase card fraud, we received an allegation that an
employee in NSF’s Student Temporary Employment Program used a purchase card
to make calls to chat rooms. The designated cardholder noticed the charges while
reviewing the card statement. We determined that the employee had obtained the
purchase card number while filing invoices for the cardholder. When presented with
a termination letter by the Human Resources Division, the employee chose to resign.
We referred the case to county police and the employee was arrested. NSF has been
reimbursed $1,553.53.

      In October 2001, we reviewed a number of individual purchase card transactions
to spot check for inappropriate use. We developed a list of fraud indicators for the
review, including transactions that are unlikely to be related to NSF business (e.g.,
purchases at toy stores, clothing stores, and sports stores; credit card telephone calls,
purchases at local shopping malls, cash advances or transactions and purchases on
weekends and Federal holidays). To date, six purchase cards have been examined for
questionable purchases. One case was closed after we confirmed the cardholder’s
purchases were justified and adequately documented. A second case was closed after
the cardholder explained that a family member mistakenly completed a purchase at a
local toy store with the NSF purchase card. The cardholder had immediately reported
this purchase to the approving official and reimbursed NSF. We are continuing our
review and have expanded its coverage using the Joint Fraud Task Force guidance.


                                                                                            41
Investigations




                 Fraudulent Travel Claims Are Repaid

                      Travel fraud is characterized by the filing of false travel vouchers against NSF
                 grant funds and constitute a criminal violation of Title 18 U.S.C. § 641, embezzlement
                 and theft of government funds. We intend to increase investigative resources directed
                 at the detection, investigation and prosecution of travel fraud. Two recent cases are
                 described below:

                      A Texas university research foundation alleged submission of fraudulent travel
                 claims by an employee of an NSF-supported Center. The university conducted an
                 audit that disclosed eleven fraudulent claims submitted by the employee during fiscal
                 years 2000-2001. As a result of these preliminary findings, a joint OIG-FBI
                 investigation was initiated. The employee admitted to the offense and pled guilty to
                 defrauding a program funded by NSF. As part of the plea agreement, the employee
                 paid restitution in the amount of $19,871.63 and faces a maximum of 10 years in
                 Federal prison and a $250,000 fine. Sentencing is scheduled to occur during the
                 next semiannual period.

                      In our September 2000 Semiannual Report (p. 32), we discussed the case of
                 two geology professors at a Florida university who filed false and duplicative travel
                 claims. The fraudulent claims requested reimbursement for international travel wholly
                 unrelated to their grants, and time and expenses for which they also obtained
                 reimbursement as consultants to a company. The geologists also failed to disclose
                 financial interests in their closely related consulting activities, as required by their
                 university’s financial disclosure policy. An audit of the awards by the university
                 identified $71,277.65 in unallowable expenditures. Although Federal and local
                 prosecutors declined the case for prosecution, the university refunded the full amount
                 to the Federal government. In light of their repayment, and having received credible
                 written commitments from the geologists to comply with Federal requirements
                 regarding disclosure of conflict-of-interests information and expenditure of grant funds,
                 we determined that it was unnecessary to pursue further administrative actions against
                 them.

                 Support Staff’s Fraudulent Payroll Scheme Affects Four Agencies

                       A Rhode Island university notified us of payroll irregularities involving an NSF
                 grant. According to a formal report, an internal audit discovered that an administrative
                 assistant fraudulently endorsed and cashed 40 payroll checks payable to former
                 temporary employees between July 1999 and November 2000. Four Federal agencies
                 were affected by this scheme, for a total of $50,484.61. The university corrected the
                 payroll records and removed all associated charges from the grant accounts. According
                 to the audit report, the employee fraudulently diverted $14,599.20 in NSF funds.
                 The university completely reimbursed the misappropriated funds to the NSF grant.



        42
                                                                  OIG Semiannual Report March 2002




     When confronted with the allegations and preliminary findings, the employee
wrote an apology and immediately resigned. The former employee subsequently
reimbursed the university, and the Assistant U.S. Attorney declined to prosecute this
case. However, because financial fraud was committed against four Federal agencies,
and to protect the interests of the Government, we have recommended Federal
debarment for a period of two years.

Scientists Plead Guilty to
Submitting False and Duplicative SBIR Documents in Two Cases

      In our September 2001 Semiannual Report (pp. 41-42), we discussed a case in
which a bioengineering professor at a South Carolina university submitted a fraudulent
final report for an NSF Small Business Innovation Research (SBIR) Phase I grant to
his wife’s private company. The report was essentially copied verbatim from a Master’s
thesis written by one of the professor’s students before the grant was awarded, reflecting
the fact that no work was actually
performed by the company under the
award. All of the $99,300 of grant funds
were either paid directly to the professor
and his wife or used to pay personal
expenses such as college tuition for their
son. On the basis of the Phase I final
report, NSF funded a proposal for follow-
on work. We recommended that NSF
suspend the Phase II grant, and the
professor subsequently repaid $198,975 to
NSF and made an unrestricted donation
to NSF of $27,500. We referred the case
to the Department of Justice, which
accepted it for criminal prosecution.

      On February 25, 2002, the professor    The PI and her spouse used SBIR grant funds to pay themselves for
pled guilty in U.S. District Court to one    non-existent work, rent a non-existent lab, and pay for their son’s
count of violation of 18 USC §1001 for                                college tuition.
submission of false information to the
Federal government. Sentencing will
follow the preparation of a presentencing report by the Department of Justice.
Immediately following the guilty plea, the professor entered into an administrative
settlement with NSF in which he agreed to be voluntarily excluded from participating
in grants or contracts with the Federal government until October 1, 2004. The
professor’s wife dissolved the company that received the SBIR grant, and no action
was taken against her.




                                                                                               43
Investigations




                       In our March 1998 Semiannual Report (pp. 21-22), we discussed the case of a
                 California company that submitted duplicative SBIR proposals to NASA and NSF.
                 The U.S. Attorney’s Office for the Northern District of California sued the company
                 under the False Claims Act. The lawsuit primarily alleged that the company, which
                 was engaged in the business of conducting laser research, submitted substantially
                 similar or equivalent grant proposals to NSF and NASA, and obtained funding from
                 each agency to conduct the same research. At the conclusion of the research, the
                 company submitted virtually identical final reports in order to receive $49,618 in
                 final grant payments. During this semiannual period, the company agreed to a
                 settlement in which it repaid $25,000 to the government. The company also agreed
                 that in all proposals for Federal grants and contracts, it will fully and truthfully provide
                 information to the funding agency about similar or overlapping proposals submitted
                 and awards received, and it will ensure that it does not receive funding for essentially
                 equivalent or substantially similar work.

                 Conflict of Interest Concerns
                 Lead to Investigation of NSF-Supported Center

                       In our September 2001 Semiannual Report (pp. 27-28), we discussed audit
                 findings of irregularities in claims of industrial support at an NSF-supported Center.
                 Concurrent with the audit, we investigated whether the exaggerated claims constituted
                 violations of law. We also investigated the Center director’s financial interest in a
                 spin-off company to assess whether his failure to report that interest constituted a
                 fraudulent omission.

                       We determined that the exaggerated claims in the Center reports to NSF likely
                 resulted from a combination of profound sloppiness by the director and significant
                 ambiguity in NSF’s reporting requirements for these Centers. (The Center director
                 has since been replaced, and NSF has revised and clarified its reporting requirements.)
                 We also found that there was no conflict of interests between the director, the Center,
                 and the spun-off company. Accordingly, we recommended that the U.S. Attorney’s
                 Office decline to file suit. Having received credible written commitments from the
                 former director to comply with Federal requirements, or providing truthful and
                 accurate information in written representations to NSF, along with disclosure of
                 financial interests pursuant to his institution’s conflict-of-interest policy, we determined
                 that it was unnecessary to pursue further administrative actions against him.

                      In our March 1999 Semiannual Report (p. 22) we described another case in
                 which an ERC director had misrepresented the amount of industrial participation in
                 annual reports to NSF. The director in that case pled guilty to a criminal charge for
                 providing false information to the Federal government and served 3 months in prison.
                 There were two important differences between that case and this one. In that case
                 there was a pattern over several years of increasingly exaggerated claims of industrial
                 participation, especially at renewal time, eventually reaching nearly 50 percent. That


        44
                                                                 OIG Semiannual Report March 2002




ERC also had a history of troubled management and marginal scientific
accomplishments, such that if NSF had been aware of the true level of industrial
participation, it would not have renewed funding to that ERC. In contrast, the
Center described above was highly successful, and the level of exaggerated industrial
support was significantly less and followed no apparent pattern.

Institution Reimburses NSF for Faculty Time

     A Wisconsin university notified us of financial improprieties by a physics professor
who had been the principal investigator (PI) on several NSF grants. He had taken a
leave of absence from the Wisconsin university to pursue research at a university in
Hong Kong. However, when he ostensibly returned to the Wisconsin university full-
time, he continued as a full-time employee of the Hong Kong University. He traveled
frequently between Wisconsin and Hong Kong, and insisted he was able to fulfill the
demands of both full-time positions simultaneously. While in Hong Kong, he
continued to expend funds from his NSF grants as well as other Federal awards.

     As a result of the Wisconsin university’s audit, the PI resigned and subsequently
obtained full-time employment at another Hong Kong university. We asked the
Wisconsin university to assess the extent to which his expenditures from his NSF and
other Federal awards were consistent with applicable cost principles set out in OMB
Circular A-21. The university determined that the PI mischarged $8,315.72 to his
NSF grants and $24,026.65 to his Department of Energy (DOE) grant. The NSF
grants were closed, so the university agreed to repay the funds to NSF. Because the
DOE grant was still active under a different PI, the university agreed to credit the
mischarged amount to the DOE grant.

Awardee Institutions Should Notify
NSF of Financial Improprieties in a Timely Manner

      PIs under NSF research grants have broad discretion to “pursue interesting and
important leads which may arise . . . or to adopt an alternative approach which appears
to be a more promising means of achieving the objectives of the project” without
notifying or seeking approval from NSF. [NSF’s Grant Policy Manual 311.2.] In
contrast, awardee institutions are subject to broad notification requirements when
problems arise with grant administration or expenditure of the grant funds. NSF’s
Grant General Conditions emphasize that the “awardee has full responsibility for the
conduct of the project or activity supported under this award and for adherence to
the award conditions.” [GC-1 Art. 1.a.] OMB Circular A-110 requires that awardees
“immediately notify the Federal awarding agency of developments that have a
significant impact on the award-supported activities . . . [including] problems, delays
or adverse conditions which materially impair the ability to meet the objectives of
the award.”



                                                                                            45
Investigations




                       At the awardee institution, scientific, administrative, and financial judgments
                 are variously made by the PI, Co-PIs, post-doctorate students, graduate students, the
                 institution’s Authorized Organizational Representative, and other administrative
                 personnel. Serious scientific, financial, or administrative wrongdoing by any of these
                 individuals is of great interest to NSF because it might impair the achievement of the
                 grant objectives, or constitute research misconduct or violations of Federal civil or
                 criminal laws. However, our recent experience has shown that awardee institutions
                 may not always be notifying NSF about significant administrative or financial problems
                 related to their NSF grants or may unduly delay notification. Two matters that were
                 finally resolved in this semiannual period may serve to illustrate this.

                       In one matter, the PI on an NSF conference grant violated grant conditions
                 regarding competition, conflicts of interests, and program income, and may have
                 committed fraud. By the time the awardee university completed its audit, followed
                 by protracted settlement negotiations with the PI, five years had passed. We found
                 out about the matter only when the university contacted NSF to obtain approval to
                 expend the recovered funds on related activities. By that time, the relevant statutes
                 of limitations had lapsed, precluding civil or criminal action against the PI.

                      In another matter, a U.S. university discovered that one of its professors, who
                 was the PI on grants from NSF as well as DOE and DOD, had a concurrent full-
                 time position at a foreign university (see p. 45). Although the university had serious
                 concerns about the professor’s possibly fraudulent use of his Federal grant funds, it
                 did not notify NSF until after it had completed a full audit and threatened the professor
                 with disciplinary action. By the time we learned of the case, the professor had resigned
                 and permanently left the U.S., precluding taking civil or criminal action against him.

                       While both of these institutions (and numerous others we have encountered)
                 eventually notified NSF, both delayed doing so until the circumstances prevented
                 our office from conducting an investigation in a timely manner to ensure protection
                 of the Federal government’s interests. While we believe that most awardee institutions
                 endeavor to inform NSF of instances of serious non-compliance in a timely manner,
                 if we continue to encounter instances of significant noncompliance with the
                 notification requirement, we will encourage NSF to consider implementing a more
                 stringent notification policy.



                 Administrative Investigations
                 NSF Issues Revised Research Misconduct Policy

                      The Office of Science and Technology Policy (OSTP) issued a final Federal
                 research misconduct policy on December 6, 2000 in 65 FR 76260-76264 (see March


        46
                                                               OIG Semiannual Report March 2002




2001 Semiannual Report, p. 39). This policy defines research misconduct, provides
guidelines for responding to allegations, and directs Federal agencies that support or
conduct research to implement the policy. To facilitate implementation of the policy
government-wide, we are continuing to work with OSTP’s Interagency Research
Misconduct Policy Implementation Group. We have also worked closely with NSF,
providing numerous recommendations as the agency drafted its new misconduct
regulation. NSF’s final rule was published in 67 FR 11936-11939 on March 18,
2002, and is effective April 17, 2002.

     Our office has continued to lead the IG community in the effort to implement
the Federal Policy on Research Misconduct. Through the PCIE/ECIE Misconduct
in Research Working Group, we have made presentations to the IG community and
have assisted individual OIGs in implementing the new policy. At the next Working
Group meeting, we will focus on techniques for resolving cases that commingle fraud
and research misconduct allegations and develop a plan for evaluating agency
investigative efforts.

Misconduct in Science Findings by the Deputy Director

      Plagiarism Cited in 2 Findings of Misconduct in Science. In our March 2001
Semiannual Report (p. 27), we discussed the case of a biologist at a Washington
institution who plagiarized material from another scientist’s proposal. Consistent
with our recommendations, NSF’s Deputy Director issued a finding of misconduct
in science. The Deputy Director reprimanded the biologist and imposed a two-year
certification requirement. During this period, the biologist must certify to OIG that
any documents he submits to NSF contains no plagiarized material.

     In our September 2001 Semiannual Report (p. 34), we discussed the case of a
scientist employed by a small business in Ohio who plagiarized material for a Small
Business Innovation Research (SBIR) proposal. Consistent with our
recommendations, NSF’s Deputy Director issued a finding of misconduct in science.
The Deputy Director reprimanded the scientist and imposed a one-year certification
requirement.

      Falsification of Data Leads to Delay in Doctoral Degree. In our March 2001
Semiannual Report (p. 26), we discussed the case of a chemistry doctoral candidate
at an California state university who falsified data in research supported by NSF. The
university placed a letter of reprimand in the chemist’s student file, directed him to
revise and resubmit his thesis, and delayed the award of his doctoral degree by one
year. Consistent with our recommendations, NSF’s Deputy Director issued a finding
of misconduct in science and sent the chemist a letter of reprimand.




                                                                                         47
Investigations




                 Significant Administrative Cases

                       University Requirement Inconsistent with Human Subject Protections. We
                 received a complaint that a southwestern university required doctoral candidates to
                 complete the Survey of Earned Doctorates (SED) prior to scheduling a dissertation
                 defense. The SED is a research instrument sponsored by NSF and five other Federal
                 agencies to which the Common Rule for the protection of human subjects applies
                 (45 CFR part 690). As required by the informed consent clause of this policy,
                 instructions for the SED clearly state that the survey is voluntary and that failure to
                 complete the survey will not result in any adverse consequences. Any institutional
                 requirement to complete the survey would contradict the SED instructions and violate
                 the Common Rule.

                       We contacted the institution to request an explanation. According to the
                 institution, the mandatory requirement appeared to be a long-standing policy that
                 had gone unnoticed and unchanged because no student had previously complained.
                 The institution consulted with their legal office and promptly changed their policy
                 so that graduate students are no longer required to complete the survey. Because the
                 SED has a very high response rate, we intend to determine whether other universities’
                 long-standing policies, though well-intended, may be in violation of the Common
                 Rule.

                      Professor Barred from Seeking Funds Due to Careless Proposal Preparation.
                 We received multiple allegations of misconduct in science against two chemistry
                 professors at a Florida public university. In a proposal submitted to NSF, the chemists
                 allegedly plagiarized material, fabricated biographical sketches, and made false
                 statements concerning the activities of a research center. We determined that there
                 was sufficient substance to the allegation to warrant an investigation and deferred to
                 the institution’s request to conduct its own.

                      The university’s investigation committee determined that the NSF proposal
                 was derived from a declined proposal submitted to another agency in 1991. Because
                 one of the chemists was a co-PI on that proposal, the committee judged that the
                 chemist had the right to reuse the text. The committee further determined that the
                 two questioned biographical sketches were constructed without the knowledge of
                 the affected researchers from information on their faculty webpages. Although the
                 committee found this action to be poor scholarly procedure, the fact that the two
                 researchers did not feel harmed by this action mitigated the circumstance. Finally,
                 the committee determined that the “current research activity” section of the NSF
                 proposal had been copied from the 1991 proposal without being updated. Overall,
                 the university investigation committee found these actions to be extremely poor
                 practice but determined that they fell short of misconduct in science.




        48
                                                                OIG Semiannual Report March 2002




     The university committee forwarded their report to us and to the university
Provost. The Provost sanctioned the two professors for poor scholarly conduct. He
sent a letter of reprimand to both professors and directed that neither be allowed to
submit research proposals to outside agencies for a period of one year. We reviewed
the university report and concurred with its conclusions. We also found that the
Provost’s actions were reasonable and justifiable within the university’s misconduct in
science regulations. These actions adequately protected the interests of the Federal
Government. We therefore closed this case and intend to take no further action.

      False Assurances Lead to Suspension of Grant Funds. In our September 2001
Semiannual Report (pp. 36-37), we described animal welfare issues at a small college
in Wisconsin. This case was resolved when the college agreed to establish an
Institutional Animal Care and Use Committee to oversee projects that use animals.
In a second case involving another Wisconsin institution, we determined that a public
university received an NSF award based on a false assurance that the proposed vertebrate
animal experiments had been reviewed and approved by its Institutional Animal Care
and Use Committee. During the course of our review, NSF suspended funding for
the vertebrate animal research in the award and ceased processing the proposal. NSF
worked with the institution to develop a Special Project Assurance and ultimately
lifted its suspension of funding for the research and funded the proposal.

      Based on the false assurances provided by the institution, we recommend that
for the next three years, NSF require the institution to provide a statement with each
submitted proposal that it has a formal mechanism for ensuring compliance with
relevant Federal regulations, and that trained faculty and staff are responsible for the
administration and conduct of Federal grants. Additionally, we recommend that the
institution be required to provide annual reports describing actions it has taken in
connection with the vertebrate animal research supported by NSF, its efforts to ensure
compliance with the requirements of NSF’s Grant Policy Manual and Grant General
Conditions, the results of any state or Federal inspection of its facilities, and its
responses to any recommendations made in connection with those inspections.

      Fabrication Inquiry Underscores Need for Accurate Record Keeping. We
received an allegation that a biologist at an Ohio university fabricated experimental
results in a proposal submitted to NIH and an updated proposal submitted to NSF.
We contacted the university, who requested that we defer our inquiry while they
conducted their own. The biologist testified before the committee that on the basis
of verbal communication with a student in his lab, he mistakenly believed that a
certain experiment had been conducted and had incorporated a statement to that
effect in his proposal materials. The committee found no evidence to contradict this
account. In particular, the student’s laboratory notebook (a word processing file) was
incomplete and did not provide reliable evidence of events in the laboratory. The
committee concluded that the evidence was insufficient to sustain the allegation of
fabrication. After receiving the committee’s report, we undertook our own forensic


                                                                                           49
Investigations




                 linguistic analysis of the student’s lab notebook. This analysis indicated that critical
                 entries were missing and that other entries had been edited months after the events.
                 We accepted the university’s report and concurred with its conclusion.

                       In our notification to the biologist, we brought to his attention a relevant case
                 with a different outcome, described in our September 1997 (pp. 36-37) and March
                 1999 (p. 19) Semiannual Reports. In that case, a scientist claimed that in making
                 certain statements in his proposal, he had relied on oral communications with a
                 graduate student in his lab. He admitted that he took no steps to verify the accuracy
                 of his understanding of the experimental results. The university’s investigation
                 committee found that reliance on oral communication of results was not acceptable
                 scientific practice. One outcome of this case was a finding of misconduct in science.
                 Although this was a more complex case with multiple issues, such cases underline the
                 importance of good research and mentoring practices in the laboratory, including
                 scrupulous record keeping.



                 Other Investigative Activities
                 Researcher Fails to Report Program Income

                       In our September 2001 Semiannual Report (pp. 42-43), we reported that a
                 New Mexico professor of mechanical engineering failed to properly account for
                 program income resulting from conference registration fees, improperly spent NSF
                 funds, and violated conflict-of-interest rules in the planning and implementation of
                 an NSF-sponsored conference. Because of the seriousness of the violations, and the
                 fact that the university had failed to audit this award for nearly 3 years, we requested
                 confirmation that every pending NSF proposal and award complied with all applicable
                 Federal policies, particularly the provisions addressing competition and conflicts of
                 interests in procurement. We also asked the university to identify any NSF proposals
                 or awards that may generate program income.

                       In response to our concerns, the university sent a survey to all PIs requesting
                 disclosure of any current or planned program income. The university’s Contract and
                 Grant Accounting Office also independently reviewed all NSF accounts to identify
                 any accounts with the potential for generating program income, such as projects that
                 involved conferences, participant travel and additional participant costs. The university
                 notified us recently that its survey indicates no instances of program income not
                 previously disclosed. As a result of these actions, the university has created a task
                 force to produce a series of required program income training modules for NSF PIs,
                 along with orientation programs for new NSF PIs.




        50
                                                                OIG Semiannual Report March 2002




Improvements to Our Investigative Process

     Forms Revision and Professional Training. During this semiannual period, we
took steps to streamline and improve the investigative operations of our office in
preparation for peer review:
• We consolidated case forms, updated existing forms, and implemented a forms
    numbering system.
• We are in the process of revising our investigations manual to accurately reflect
    new or modified procedures.
• We also identified five categories of training for investigative staff. All our
    investigators must complete, as appropriate, either the Basic Criminal Investigator
    Training Program or the Basic Non-Criminal Investigator Training Program taught
    by the Inspector General Academy at the Federal Law Enforcement Training
    Center. Investigators must also complete training in interviewing techniques,
    grant fraud, financial fraud (including basic auditing skills), and legal issues.

      Preparations for Peer Review. The Investigations Committee of the President’s
Council on Integrity and Efficiency (PCIE) and the Executive Council on Integrity
and Efficiency (ECIE) issued a Draft Guide for Conducting Qualitative Assessment
Reviews of the Investigative Operations of the Offices of Inspectors General. The
Guide proposes standards to be used in implementing a peer review of investigative
offices. As a member of the ECIE, we support the need for a peer review process and
plan to participate fully in its implementation. We are currently conducting an internal
review of our investigations program based on the Guide and plan to submit a report
to the PCIE/ECIE Investigations Committee by April 30, 2002 detailing our efforts
and suggesting any improvements to the Guide prompted by our internal review.

      Implementation of Process for Referrals to NSF Management. From time to
time, we receive allegations that NSF personnel have engaged in wrongful conduct.
While some of these matters require investigation by our office, NSF personnel officials
and/or program managers may best handle others. During this semiannual period,
we worked with NSF’s Human Resource Management Division (HRM) to establish
a procedure for handling allegations we receive that are more efficiently and reasonably
handled by HRM or the NSF management. This procedure has resulted in the
effective assessment and resolution of such allegations.

     Developing a Grant Fraud Indicators System. As discussed in our September
2001 Semiannual Report (p. 45), we created a checklist of grant fraud indicators to
enhance our ability to detect grant fraud by identifying its risk factors. We are now
developing a pilot project to measure the effectiveness of the indicators. This pilot
project, a joint endeavor by the Office of Investigations and the Office of Audit, will
involve sharing detailed information relative to the presence of fraud indicators in
audits performed or supervised by our office. We plan to implement the pilot project
during the upcoming semiannual period.


                                                                                           51
                                                  Statistical Data



Reporting Terms Defined                              54


Audit Reports Issued
With Recommendations for Better Use of Funds         55


Audit Reports Issued with Questioned Costs           56


Audit Reports Involving Cost-Sharing Shortfalls      57


Status of Internal NSF Recommendations               58


List of Reports                                      59


Audit Reports With
Outstanding Management Decisions                     61


Investigative Activity and Statistics                62


Administrative Activity and
Assurance/Certifications Received                    63




                                                     53
Statistical Data




                   Reporting Terms Defined
                        Some of the more common terms that we use in reporting audit statistics and
                   findings are defined below:

                           Questioned Cost. Auditors question costs because of an alleged violation of
                   a provision of a law, regulation, grant, cooperative agreement, or contract. In addition,
                   a questioned cost may be a finding in which, at the time of the audit, either a cost is
                   not supported by adequate documentation, or the expenditure of funds for the
                   intended purpose is deemed unnecessary or unreasonable.

                          Unsupported Cost. A cost that is questioned because it is not supported by
                   adequate documentation at the time of audit.

                            At-Risk Cost Sharing. Cost sharing is identified as “at risk” if an awardee is
                   lagging in meeting its cost-sharing obligation for an award that is still active. In some
                   situations, the awardee may purport to be funding its obligation but lacks internal
                   controls and documentation to support its claim, making it difficult to determine
                   their allowability under federal cost principles.

                          Management Decision. Management’s evaluation of the findings and
                   recommendations included in the audit report and the issuance of a final decision by
                   management containing its response to such findings and recommendations. It is
                   important to note that NSF is responsible for making a management decision regarding
                   questioned costs that determines whether they will be sustained (i.e., disallowed) or
                   allowed.

                        Funds Put to Better Use. Audit recommendations that identify ways to improve
                   the efficiency of programs frequently lead to prospective benefits over the life of an
                   award or funds put to better use. Examples include reducing outlays, deobligating
                   funds, or avoiding unnecessary expenditures.

                          Final Action. The completion of all management actions that are described
                   in a management decision with respect to audit findings and recommendations. If
                   management concluded that no actions were necessary, final action occurs when a
                   management decision is issued.

                        Compliance or Internal Control Issues. Audits often result in recommendations
                   either to improve the auditee’s compliance with NSF and federal regulations, or to
                   strengthen the auditee’s internal control structure to safeguard federal funds from
                   fraud, waste, abuse, and mismanagement.




         54
                                                         OIG Semiannual Report March 2002




Audit Reports Issued With Recommendations
for Better Use of Funds

                                                                  Dollar Value
A. For which no management decision has been made by the
   commencement of the reporting period                               $50,000

B. Recommendations that were issued during the reporting period            $0

C. Adjustments related to prior recommendations                              0

Subtotal of A+B+C                                                     $50,000

D. For which a management decision was made during the
   reporting period                                                   $50,000

   i) Dollar value of management decisions that were consistent
      with OIG recommendations                                        $50,000

   ii) Dollar value of recommendations that were not agreed
       to by management                                                     0

E. For which no management decision had been made by the
   end of the reporting period                                               0

For which no management decision was made within
6 months of issuance                                                        0




                                                                                 55
Statistical Data




                   Audit Reports Issued with Questioned Costs
                                                      Number of Questioned Unsupported
                                                       Reports    Costs       Costs



                   A. For which no management            13     $5,389,095 $3,294,455
                      decision has been made by the
                      commencement of the reporting
                      period

                   B. That were issued during the        10      $576,036      $0
                      reporting period

                   C. Adjustment related to prior                   $0         $0
                      recommendations

                   Subtotal of A+B+C                     23     $5,965,131 $3,294,455

                   D. For which a management             14     $4,653,588 $3,273,159
                      decision was made during the
                      reporting period

                      i) dollar value of disallowed      N/A     $940,564      N/A
                          costs
                      ii) dollar value of costs not      N/A    $3,713,024     N/A
                          disallowed

                   E. For which no management             9     $1,311,543   $21,296
                      decision had been made by the
                      end of the reporting period

                   For which no management decision       2      $864,834    $21,296
                   was made within 6 months of
                   issuance




         56
                                                                OIG Semiannual Report March 2002




Audit Reports Involving Cost-Sharing Shortfalls
                                      Number       Cost-       At Risk of     Actual
                                        of        Sharing     Cost Sharing Cost Sharing
                                      Reports    Promised       Shortfall   Shortfalls
                                                               (Ongoing    (Completed
                                                                Project)     Project)

 A. Reports with monetary                3      $9,967,398       $0         $194,125
     findings for which no
     management decision has
     been made by the beginning
     of the reporting period:

 B. Reports with monetary                4      $13,578,398 $1,406,881      $20,665
     findings that were issued
     during the reporting period:


 C. Adjustments related to prior         0          0             0             0
     recommendations

 Total of Reports with Cost Sharing      7      $23,545,796 $1,406,881      $214,790
 Findings (A+B+C)

 D. For which a management               4      $17,446,359      $0         $194,989
     decision was made during the
     reporting period:

     1. Dollar value of cost-           N/A        N/A            $0        $103,523
        sharing shortfall that
        grantee agreed to provide.
     2. Dollar value of cost-           N/A        N/A            $0        $91,466
        sharing shortfall that
        management waived

 E. Reports with monetary                3      $6,099,437    $1,406,881    $19,801
     findings for which no
     management decision has
     been made by the end of the
     reporting period.




                                                                                          57
Statistical Data




                   Status of Internal NSF Recommendations


                   Open Recommendations (as of 3/31/02)
                      Recommendations Open at the Beginning of the Reporting Period                          86
                      New Recommendations Made During Reporting Period                                        0
                      Total Recommendations to be Addressed                                                  86

                   Management Resolution of Recommendations2
                     Awaiting Resolution                                                                     11
                     Resolved Consistent With OIG Recommendations                                            75

                   Management Decision That No Action is Required                                              0

                   Final Action on OIG Recommendations3
                       Final Action Completed                                                                60
                       Recommendations Open at End of Period                                                 26

                   Aging of Open Recommendations

                            Awaiting Management Resolution
                            0 through 6 months                                                                0
                            7 through 12 months                                                              11
                            More than 12 months                                                               0

                            Awaiting Final Action After Resolution
                            0 through 6 months                                                                1
                            7 through 12 months                                                               8
                            13 through 18 months                                                              6
                   2
                     “Management Resolution” occurs when the OIG and NSF management agree on the corrective
                   action plan that will be implemented in response to the audit recommendations.
                   3
                     “Final Action” occurs when management has completed all actions it agreed to in the corrective
                   action plan.




         58
                                                         OIG Semiannual Report March 2002




List of Reports


NSF and CPA Performed Reviews
                                                                  Better        Cost
Report                                   Questioned Unsupported
          Subject                                                 Use of       Sharing
Number                                     Costs       Costs
                                                                  Funds        At-Risk
02-1001   Midwest university              $48,408       $0         $0             $0
02-1002   West coast university              $864       $0         $0       $416,826
02-1003   West coast university assoc.    $19,426       $0         $0       $522,025
02-1004   Western university                 $375       $0         $0             $0
02-1005   Research support company        $23,821       $0         $0             $0
02-1007   University association         $313,978       $0         $0             $0
02-1008   Research institute                   $0       $0         $0             $0
02-1009   College in midwest                   $0       $0         $0       $461,740
02-1010   College in midwest               $1,405       $0         $0             $0
02-1011   Midwest university                   $0       $0         $0             $0
02-1012   Technical college               $39,296       $0         $0             $0
02-1013   Research support company             $0       $0         $0             $0
02-2001   Major research project               $0       $0         $0             $0
02-2002   Annual NSF Report                    $0       $0         $0             $0
02-2003   NSF internal report                  $0       $0         $0             $0
02-2004   NSF internal report                  $0       $0         $0             $0
02-2005   NSF internal report                  $0       $0         $0             $0
02-6001   Trade association                    $0       $0         $0             $0
02-6002   Communications company               $0       $0         $0             $0


          Total:                         $447,573       $0         $0      $1,400,591




                                                                                         59
Statistical Data




                   NSF-Cognizant Reports
                                                                                   Cost
                   Report                                Questioned Unsupported
                             Subject                                              Sharing
                   Number                                  Costs       Costs
                                                                                  At-Risk

                   02-4001   College association              $0        $0         $0
                   02-4002   Educational association          $0        $0         $0
                   02-4003   Research organization            $0        $0         $0
                   02-4004   Communications foundation        $0        $0         $0
                   02-4005   Research institute               $0        $0         $0
                   02-4007   Non-profit organization          $0        $0         $0
                   02-4008   Non-profit organization          $0        $0         $0
                   02-4009   Non-profit organization          $0        $0         $0


                             Total:                           $0        $0         $0




                   Other Federal Audits
                                                                                   Cost
                   Report                                Questioned Unsupported
                             Subject                                              Sharing
                   Number                                  Costs       Costs
                                                                                  At-Risk


                   02-5009   Technological institute      $95,338        $0          $0
                   02-5023   Research Foundation          $33,125        $0          $0

                             Total                       $128,463        $0          $0




         60
                                                               OIG Semiannual Report March 2002




Audit Reports With
Outstanding Management Decisions
      This section identifies audit reports involving questioned costs, funds put to
better use, and cost sharing at risk where management had not made a final decision
on the corrective action necessary for report resolution with 6 months of the report’s
issue date. At the end of the reporting period there were two reports remaining that
meet this condition. Both of these reports involve questioned costs, totaling $864,834.
The status of recommendations that involve internal NSF management is described
on page 58.




                                                                                          61
Statistical Data




                   Investigations Case Activity


                        October 1, 2001 - March 31, 2002


                                                          Preliminary           Civil/Criminal         Administrative

                            Active Cases
                            (From Previous
                            Reporting Period)                   8                      29                        26

                            New Cases                         49                       17                        43

                            Closed Cases                      47                       16                        38

                            Active Cases                      10                       30                        31




                        Investigations Case Statistics


                            New Referrals                                             3
                            Criminal Convictions/Pleas                                2
                            Civil Settlements                                         2
                            Administrative Actions                                    0
                            Investigative Recoveries4                            $229,828

                    4
                     Investigative recoveries include civil penalties, criminal fines, and funds paid in restitution, as
                    well as specific cost savings for the government.




         62
                                                                      OIG Semiannual Report March 2002




Administrative Activity And
Assurance/Certifications Received



    Findings by NSF                                                                      3

    Cases Forwarded to the Office
    of the Director for Adjudication                                                     2

    Cases Reported in Prior Periods With No
                                                                                             5
    Adjudication by the Office of the Director                                           1

    Number of Debarments in Effect During This Period                                    3

    Assurances and Certifications Received6

       Number of Cases Requiring Assurances During This Period                           6
       Number of Cases Requiring Certifications During This Period                       7
       Assurances Received During This Period                                            4
       Certifications Received During This Period                                        0



5
 This case is described in our September 2001 Semiannual Report (page 35).
6
 NSF accompanies some findings of misconduct in science with a certification and/or assurance
requirement. For a specified period, the subject must confidentially submit to OIG a personal
certification and/or institutional assurance that any newly submitted NSF proposal does not
contain anything that violates NSF’s regulation on misconduct in science. These certifications
and assurances remain in OIG and are not known to, or available to, NSF program officials. In
one case not involving misconduct in science, described in our September 2000 Report (page 26),
NSF required the subject and his institution to submit to the appropriate NSF program an
assurance of compliance with appropriate requirements and procedures with any proposal
involving biohazardous research.




                                                                                                  63
                                                                                   Appendix 1




                                                                  Reporting Requirements

     Under the Inspector General Act, we report to the Congress every
six months on the following activities:

     Reports issued, significant problems identified, the value of
questioned costs and recommendations that funds be put to better use,
and NSF’s decisions in response (or, if none, an explanation of why and
a desired timetable for such decisions). (See p. 5-6, 53)

     Matters referred to prosecutors, and the resulting prosecutions
and convictions. (See p. 39, 62)

     Revisions to significant management decisions on previously
reported recommendations, and significant recommendations for which
NSF has not completed its response. (See p. 58, 61)

    Legislation and regulations that may affect the efficiency or integrity
of NSF’s programs. (See p. 10)

    OIG disagreement with any significant decision by NSF
management. (None)

     Any matter in which the agency unreasonably refused to provide
us with information or assistance. (None)




                                                                              65
                                                                     Appendix 2




                                                                   Acronyms

AC        Advisory Committee
AOR       Authorized Organizational Representative
CAARB     Cost Analysis and Audit Resolution Branch
CFR       Code of Federal Regulations
CFO Act   Chief Financial Officers Act of 1990
CIRT      Computer Incident Response Team
COI       Conflict of Interest
CPO       Division of Contracts, Policy and Oversight
COV       Committee of Visitors
DCAA      Defense Contract Audit Agency
DFE       Designated Federal Entity
DGA       Division of Grants and Agreements
DOD       Department of Defense
DOE       Department of Energy
DOJ       Department of Justice
ECIE      Executive Council of Integrity and Efficiency
EHR       Directorate for Education and Human Resources
ERC       Energy Research Center
ESR       Division of Educational System Reform
FBI       Federal Bureau of Investigation
FedCIRC   Federal Computer Incident Response Center
FOIA      Freedom of Information Act
GAO       General Accounting Office
GISRA     Government Information Security Act
GPRA      Government Performance and Results Act
GSA       General Services Administration
HUD       Department of Housing and Urban Development
HRM       Human Resource Management Division
IG        Inspector General
MPS       Directorate for Mathematics and Physical Sciences
MRE       Major Research Equipment
NAPA      National Academy of Public Administration
NASA      National Aeronautics and Space Administration
NIH       National Institute of Health
NSB       National Science Board
NSF       National Science Foundation
ODP       Ocean Drilling Program
OIG       Office of Inspector General
OMB       Office of Management and Budget
OPP       Office of Polar Programs



                                                              67
Appendix 2




             OSTP    Office of Science and Technology Policy
             PCIE    Presidents Council on Integrity and Efficiency
             PI      Principal Investigator
             PFCRA   Program Fraud Civil Remedies Act
             R&D     Research and Development
             SBIR    Small Business Innovation Research
             SED     Survey of Earned Doctorates
             SSN     Social Security Number
             USAP    United States Antarctic Program
             USI     Urban Systemic Initiative
             USP     Urban Systemic Program
             VA      Veterans Administration




    68
                     Organization Chart



                            INSPECTOR
                             GENERAL
                          Christine C. Boesz

                         DEPUTY INSPECTOR
                             GENERAL
                              Tim Cross

COUNSEL TO THE
  INSPECTOR
   GENERAL

  Arthur A. Elkins




ASSOCIATE IG FOR                               ASSOCIATE IG FOR
     AUDIT                                      INVESTIGATIONS

Deborah H. Cureton                               Peggy L. Fischer




     AUDIT                ADMINISTRATIVE        INVESTIGATIVE
     STAFF                    STAFF                 STAFF
